<html>
<title> - IMPLEMENTATION OF THE FAA REAUTHORIZATION AND REFORM ACT: ONE YEAR LATER</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       IMPLEMENTATION OF THE FAA
                    REAUTHORIZATION AND REFORM ACT:
                             ONE YEAR LATER
=======================================================================


                                (113-3)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                                AVIATION

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
79-556                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
VACANCY


                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman
THOMAS E. PETRI, Wisconsin           RICK LARSEN, Washington
HOWARD COBLE, North Carolina         PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
SAM GRAVES, Missouri                     Columbia
BLAKE FARENTHOLD, Texas              EDDIE BERNICE JOHNSON, Texas
LARRY BUCSHON, Indiana               MICHAEL E. CAPUANO, Massachusetts
PATRICK MEEHAN, Pennsylvania         DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ANDRE CARSON, Indiana
REID J. RIBBLE, Wisconsin            RICHARD M. NOLAN, Minnesota
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida                  CORRINE BROWN, Florida
MARK MEADOWS, North Carolina         NICK J. RAHALL, II, West Virginia
RODNEY DAVIS, Illinois, Vice Chair     (Ex Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Hon. Michael P. Huerta, Administrator, Federal Aviation 
  Administration.................................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Steve Cohen, of Tennessee...................................    44
Hon. Eddie Bernice Johnson, of Texas.............................    45

PREPARED STATEMENT AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED BY 
                                WITNESS

Hon. Michael P. Huerta:

    Prepared statement...........................................    46
    Answers to questions from the following majority subcommittee 
      members:

        Hon. Frank A. LoBiondo, a Representative in Congress from 
          the State of New Jersey................................    58
        Hon. Patrick Meehan, a Representative in Congress from 
          the State of Pennsylvania..............................    72
        Hon. Reid J. Ribble, a Representative in Congress from 
          the State of Wisconsin.................................    74
    Answers to questions from the following minority subcommittee 
      members:

        Hon. Eddie Bernice Johnson, a Representative in Congress 
          from the State of Texas................................    76
        Hon. Rick Larsen, a Representative in Congress from the 
          State of Washington....................................    81

                       SUBMISSION FOR THE RECORD

Hon. Michael P. Huerta, Administrator, Federal Aviation 
  Administration, insert for the record addressing the amount of 
  money that would be saved if the FAA delayed its unmanned 
  aircraft systems program, as asked by Hon. Thomas Massie, a 
  Representative in Congress from the State of Kentucky..........    26



[GRAPHIC] [TIFF OMITTED] 79556.001

[GRAPHIC] [TIFF OMITTED] 79556.002

[GRAPHIC] [TIFF OMITTED] 79556.003

[GRAPHIC] [TIFF OMITTED] 79556.004

[GRAPHIC] [TIFF OMITTED] 79556.005


                       IMPLEMENTATION OF THE FAA

                    REAUTHORIZATION AND REFORM ACT:

                             ONE YEAR LATER

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2013

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:30 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. I would like to welcome everybody to our first official 
hearing of the Aviation Subcommittee. We are looking forward to 
having a very production committee agenda, focusing on results 
and where we can solve some problems.
    So, while the original intent of this hearing was to 
oversee the progress made by the FAA on implementing the FAA 
Modernization and Reform Act, the topic of sequestration is of 
a concern to everyone. So I am hoping that we will hear from 
Administrator Huerta more on the details of the FAA's plan to 
handle sequestration and, in particular, how we are going to 
ensure the safety and security of the traveling public.
    I remain deeply concerned about the impact of 
sequestration, and I believe we should work for a long-term 
solution targeting wasteful and unnecessary Government spending 
without raising taxes. I am disappointed with some of what has 
been laid out there, with a list of threats of what may take 
place and different bad things that are going to happen. I 
think what we really need to do is focus on how we can get 
results and how we can make sure that the traveling public 
understands that their safety and security is the utmost 
importance.
    A review of the FAA's budget shows that there are 
significant dollars that might be able to be redirected to 
minimize and alleviate the problems and challenges this poses. 
But let me repeat: The FAA can and must find every way to meet 
the required cuts while ensuring the safety and security of the 
traveling public. And this is something, Mr. Administrator, I 
am very confident that you are able to orchestrate.
    I would like to now address the original subject of the 
hearing, the FAA Modernization and Reform Act, called the 
Reform Act, which was signed into law February 14, 2012. In the 
last year, the FAA has taken on the task of implementing the 
many requirements included in the Reform Act. Ensuring 
implementation of the important FAA reauthorization mandates 
remains a top priority of the subcommittee. The FAA has had 
some successes and it has also faced some challenges during the 
last year. Today I look forward to hearing from Administrator 
Huerta on the plan that the FAA is going to use to fully 
implement the Reform Act.
    I thank you for coming this morning. Before we turn to the 
Administrator, I ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and include 
extraneous materials for this hearing.
    [No response.]
    Mr. LoBiondo. Without objection, so ordered.
    I would now like to yield to Mr. Larsen for any comments he 
may have.
    Mr. Larsen. Thank you, Mr. Chairman, for calling the 
hearing today on implementing the FAA reauthorization bill. We 
have--Mr. Chairman, we have an excellent cooperative 
relationship, working together in the last Congress and the 
Coast Guard Subcommittee, and I look forward to continuing that 
work on aviation.
    At the outset, I should point out that I didn't vote for 
the FAA authorization bill, because it amended the Railway 
Labor Act in a way that I believe will--is harmful to the right 
of workers to organize and to collectively bargain. That said, 
the bill did provide much-needed stable, long-term funding for 
Federal airport infrastructure grants. Additionally, the bill 
provided a new policy direction for NextGen air traffic control 
and established a process for safely integrating new 
technologies like unmanned aircraft systems into the National 
Airspace System. The bill also included several provisions to 
ensure the agency is adequately staffed and that its workforce 
is adequately trained.
    Additionally, I want to praise Administrator Huerta and his 
staff for efforts to extend occupational safety and health 
protections to flight attendants in their high-altitude 
workplace, as mandated by the bill.
    Democrats in this committee fought to include that mandate 
in the final conference report, and I was pleased to see the 
FAA has published a proposed policy statement last December and 
solicited public comments. I hope a final policy statement will 
be adopted in short order, and look forward to hearing from the 
Administrator on where we stand now on extending long-overdue 
legal protections to tens of thousands of flight attendants.
    I look forward to receiving a status report on how all 
these important provisions, in fact, are being implemented.
    Mr. Chairman, it does concern me that the bill's successful 
implementation can be derailed, and is about to be derailed, 
due to looming spending cuts. At its heart, the authorization 
bill is a funding bill, a multiyear authorization of funding 
for the agency. Yet we are only a few days away from budget 
sequestration, which will mean several hundred million dollars 
in automatic cuts for this year below the funding levels 
authorized in the bill, and larger cuts going forward.
    Absent these funding levels, the FAA's priority in the next 
few years may not be in implementing the bill, but managing a 
self-inflicted budgetary crisis while attempting to safely 
downsize the U.S. aviation system. Long-term investments and 
new technologies that Congress sought to advance in the bill 
may be postponed, and the delivery of some critical NextGen 
systems could be delayed for years.
    According to the FAA, sequestration will result in the 
furlough of a large number of air traffic controllers, 
technicians, and aviation safety employees that will cause 
travel delays and disruption. Service at over 200 air traffic 
control towers could be eliminated.
    These furloughs could also impact aviation manufacturers 
who need FAA safety certifications for new NextGen 
technologies. Aviation manufacturing is a significant driver of 
the economy in Washington State, so I am particularly concerned 
about the effect of sequestration on that part of the industry.
    And finally, the FAA's greatest asset is its people. The 
FAA's dedicated and professional workforce operates the 
largest, most complex, and safest aviation system in the world. 
However, one-third of the total workforce of FAA will be 
retirement-eligible in 2014. The possibility of furloughs 
accompanied by pay and benefit cuts could cause many devoted 
FAA veterans to throw up their hands and say, ``I am done.''
    Administrator Huerta, as you consider managing the agency 
with increasingly scarce budgetary resources, I would urge you 
to prioritize your investment in your people. The FAA must 
continue to invest in the training, development, recruitment, 
and retention of a world-class, 21st-century workforce.
    So, with that, Mr. Chairman, thank you for a chance for 
opening comments. I look forward to hearing from our witness.
    Mr. LoBiondo. We thank you, Mr. Larsen. We are very pleased 
to welcome the Chair of the full committee, Mr. Bill Shuster.
    Mr. Chairman, the floor is yours.
    Mr. Shuster. Thank you, Chairman LoBiondo. And thank you 
and Ranking Member Larsen for organizing the first hearing of 
the Aviation Subcommittee. And I know there will be many more 
to come as you aggressively have oversight on the FAA.
    And I want to welcome Administrator Huerta. Thank you for 
being here today, and congratulations on being confirmed. I 
know you haven't been in the chair that long, and it is already 
hot. But we appreciate the work you have been doing. And you 
have one of the most important agencies in Government, 47,000 
employees and a $16 billion budget. So we look forward to 
working with you, and we know it is a tough job.
    And, as I mentioned, the FAA Modernization and Reform Act, 
I know that Chairman LoBiondo and Larsen and myself will be 
looking very closely at it to make sure that timelines are met 
and progress is made. And there has been progress, but there is 
still a lot of work that needs to be done.
    But now that you are firmly in place, also we expect to see 
NextGen, which is extremely important to our airline--our 
aviation industry, to make sure that it moves forward, and we 
make sure we are measuring and putting those pieces in place as 
quickly as possible. Because I think the Nation benefits as a 
whole by having the most efficient airspace in the world.
    I also would like to briefly address sequestration. I think 
we all agree it is not the best way to address our deficit and 
debt problem we have, but it is what we have to deal with 
today. The FAA, like other agencies, is going to have to make 
some tough decisions. I am a little frustrated that the FAA 
has, instead of looking at the budget and come forward with a 
plan to be able to see where you can move money, which I know 
is possible--we need to make sure that we don't allow safety to 
be questioned or challenged at all.
    And again, my looking, with my staff looking at the budget, 
there are places that you can shift money around and make the 
tough choices you need to make. And we are here committed to 
continue to explore with you ways to address the sequestration 
situation that we see today, and with maintaining the highest 
level of safety.
    So, I look forward to working with Chairman LoBiondo and 
Ranking Member Larsen. And again, thanks for being here today 
and taking the time to be with us. I yield back.
    Mr. LoBiondo. Thank you, Mr. Chairman. We are very pleased 
to welcome Mr. Rahall, the ranking member. Nick, you are 
recognized.
    Mr. Rahall. Thank you, Mr. Chairman LoBiondo. I commend you 
for calling today's hearing on the implementation of the FAA's 
reauthorization bill. The bill was signed into law 1 year and 2 
weeks ago, which would ordinarily make this an appropriate time 
for the subcommittee to hear about how the FAA is implementing 
the bill's many requirements.
    But it is rather ironic that we are in the situation that 
we are, and that Administrator Huerta, to whom I commend for 
your excellent efforts to ensure the safety of our traveling 
public--you and your agency do a tremendous job, given the 
circumstances in which we find ourselves.
    But it is ironic that we are here today, talking about 
sequestration, obviously, rather than a true review of the FAA 
reauthorization bill. Sequestration is the big elephant in the 
room that seriously threatens the stability that we thought we 
had achieved by enacting this multiyear FAA bill.
    If sequestration occurs on March 1st, as appears likely, 
almost every single one of the FAA's 47,000 employees will be 
furloughed. Radio beacons and radars could sit unused while the 
technicians who repair them are at home without pay. And the 
figures go on and on. We are all aware of what the 
possibilities are. Planes will stack up in the air and line up 
on the ground as air traffic control struggles to cope with the 
furlough of hundreds of controllers on any given day. And more 
than 200 air traffic control towers, including almost all the 
control towers in my home State of West Virginia could be 
closed, possibly for good.
    Sequestration will have dire consequences for rural America 
which, in many ways, depends on aviation much more than any 
other part of our country. Congress made a commitment in the 
FAA bill to protect aviation for rural America by, for example, 
continuing the essential air service program, by improving the 
safety of air ambulances that save the lives of thousands of 
Americans in rural areas, by directing FAA to give pilots more 
tools to access rural airports in bad weather. But I fear that 
if the FAA is forced to absorb a $600 million-plus budget cut, 
the needs of rural America could be put aside as FAA struggles 
to cope with the demand in major metropolitan areas where 
flight delays could be up to 90 minutes.
    As we stand on the precipice, I cannot help but think here 
we go again. The FAA limped along under 23 short-term 
extensions--which I am sure the Administrator agonized through 
every one of those--before a long-term reauthorization was 
finally enacted last year. And in 2011, the Republican 
leadership--and I am not referring to Chairman Shuster or 
Chairman LoBiondo by any stretch of the imagination--but the 
Republican leadership in 2011 conducted a scorched earth policy 
of negotiating the long-term bill that caused a 2-week FAA 
shut-down that almost 4,000 employees on furlough without pay, 
and cost almost $400 million in lost revenue. Now the 
Republican leadership's failure to come to the table at that 
time and work out a balanced approach to our fiscal challenges 
will again cost the flying public, not to mention tens of 
thousands of dedicated Federal employees dearly.
    So, I look forward to today's hearing, look forward to you, 
Administrator Huerta, on the FAA's plans to implement 
sequestration while ensuring that rural America, where aviation 
is a vital, vital, vital lifeline, and a way of life, is not 
forgotten. Thank you again, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Rahall. I would like to 
briefly recognize Mr. Larsen for a motion.
    Mr. Larsen. Mr. Chairman, I would ask unanimous consent to 
enter into the record the statement for the record from 
Congresswoman Eddie Bernice Johnson.
    Mr. LoBiondo. So ordered.
    Now it is our pleasure to welcome our FAA Administrator, 
Michael Huerta.
    Michael, thank you for being here today. The floor is 
yours.

  TESTIMONY OF HON. MICHAEL P. HUERTA, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Huerta. Thank you, Chairman LoBiondo, Ranking Member 
Larsen, Chairman Shuster, Ranking Member Rahall, members of the 
subcommittee.
    A year ago, Congress reauthorized the Federal Aviation 
Administration. After 4\1/2\ years of uncertainty and stop-gap 
measures, the predictability that reauthorization provided was 
very welcome. It allowed us to invest with greater certainty in 
the future of our aviation system, and we are grateful for the 
efforts of this committee. We have been working very diligently 
in the past year to implement the provisions of 
reauthorization.
    A year later, however, we again face fiscal uncertainty and 
unpredictability. The sequester is looming, and massive budget 
cuts are set to go into effect just 2 days from now.
    I want to make a clear distinction about how sequestration 
differs from previous Government shut-downs that have been 
caused by a failure to pass a budget, or by the temporary lapse 
in authorization which took place in 2011.
    First, almost all of our FAA accounts would be affected. 
Therefore, this would affect almost all of our employees. We 
are looking at all options to reduce costs. We are looking at a 
hiring freeze, at cutting contracts and travel and other items 
not related to day-to-day operations. But to reach the large 
figure we need to cut, we have little choice but to make up the 
rest through furloughing employees. This is not something that 
we take lightly.
    Unlike a Government shutdown, under the sequester, almost 
all of our employees would be affected, even what we would 
traditionally call essential personnel. The vast majority of 
our employees, including these essential workers, would have to 
be furloughed. Under the sequester, our flexibility is very 
limited because we must cut proportionately from all affected 
accounts. We can't move money around, and we have limited 
flexibility to choose what it is that we are able to cut.
    Now, a very large portion of the Department of 
Transportation's budget is exempt from the sequester. What this 
means is that the FAA will take more than 60 percent of the 
sequester cuts for all of DOT, even though our agency only 
makes up about 20 percent of the Department's budget. Now, 
within the FAA, the airport grant program is also exempt from 
the sequester. So this, again, limits the choices we have on 
where to cut the money.
    And, finally, we have a very short time to make the bulk of 
these massive cuts: about 6 months. And that means that the 
cuts would need to be deeper to have the same effect as if we 
could spread them out.
    It is my hope, and the hope of everyone at the Department 
of Transportation, that our leaders can work together to rally 
around the improvements that we need for our Nation's air 
transportation system. We hope that we can continue to support 
the programs that we all acknowledged were so important just 1 
year ago.
    As we move forward, the number one mission of the FAA is 
safety. That will always be our priority. Let me say with 
regard to the Boeing 787, we are working around the clock to 
conduct a comprehensive review of the critical systems of the 
aircraft, including the design, the manufacture, and the 
assembly of the Dreamliner. As part of that review, we are 
working closely on a data-driven process to identify the cause 
of the recent battery issues, and mitigations for them.
    I appreciate the expression of confidence in the FAA's 
actions from committee Chairman Shuster and Ranking Member 
Rahall, as well as from subcommittee Chairman LoBiondo and 
Ranking Member Larsen. We all had a productive briefing just a 
couple of weeks ago.
    Last week we met with senior executives from Boeing to 
discuss the status of the ongoing work to address the 787 
battery issues. We will carefully analyze Boeing's proposal to 
address these issues. But the safety of the flying public is 
our top priority, and we won't allow the 787 to return to 
commercial service until we are confident that any proposed 
solution has addressed battery failure risks.
    In the last few years, Congress has given us much guidance 
on how to advance aviation safety, and we have accomplished a 
great deal. The FAA overhauled flight and duty rules to 
guarantee that airline pilots have the opportunity to get the 
rest they need to operate safely. We are raising the required 
hours of experience before a pilot can operate at the controls 
of any airline flight. We are also finalizing a rule that will 
require more rigorous and realistic training, so that flight 
crews can better handle rare but serious scenarios.
    While we are enhancing the safety of the system that we 
know today, we are also working to deliver the benefits of new 
technology to create the aviation system of tomorrow through 
NextGen. We are working to safely integrate unmanned aircraft 
systems into our airspace.
    Earlier this month, we requested proposals to host six test 
sites across the country to test unmanned aircraft systems. We 
need to better understand the operational issues to safely 
integrate unmanned aircraft into our airspace. We need to 
explore pilot training. We need to make sure that unmanned 
aircraft sense and avoid other aircraft in the system. If an 
unmanned aircraft loses the link to its ground-based pilot, we 
need to make sure that it operates safely.
    In addition, we are requesting comments from the public 
about how to address privacy concerns with these test sites. 
Each site operator will be required to obey all laws protecting 
an individual's right to privacy.
    To bring NextGen to fruition, we need to collaborate across 
the FAA and across the industry. Reauthorization asked us to do 
this, and we have made great strides in collaborative efforts 
on many fronts. We have worked with our labor unions to lay the 
foundation for NextGen with the En-Route Automation 
Modernization, or ERAM. The collaboration has been exceptional. 
We are now using this new computer system to guide airplanes at 
high altitudes at nearly half of our sites across the Nation.
    Chairman LoBiondo, as you know, a lot of the research that 
propels NextGen takes place in Atlantic City. The William J. 
Hughes Technical Center plays a key role in fostering NextGen, 
and we appreciate your support.
    We are collaborating with industry. As a result of the work 
we are doing with our many partners, we are producing 
satellite-based navigation procedures much more quickly. We are 
using these NextGen procedures right now to reduce the miles 
that aircraft must fly to create more direct routes, to reduce 
fuel burn, and to cut greenhouse gas emissions. Right here in 
Metro Washington, DC, airlines have started using these NextGen 
procedures to fly into Dulles and Reagan National. We estimate 
the airlines will save $2.3 million in fuel per year.
    Reauthorization laid out a vision to address the future 
needs of our Nation's aviation system. These needs have not 
gone away. It is important for us to work together to protect 
the great contribution that civil aviation makes to our 
economy. Aviation is our largest export industry. It 
strengthens our balance of trade. It adds $1.3 trillion to the 
economy, and provides for 10 million jobs.
    I look forward to working with you, and I sincerely hope 
that we can work together to make sure that America continues 
to operate the largest and safest aviation system in the world.
    Mr. Chairman, this concludes my prepared remarks. I would 
be pleased to answer any questions you might have.
    Mr. LoBiondo. Well, thank you very much. This will probably 
be the first in a number of hearings and interchanges with the 
FAA, since it is so comprehensive and there is so very much to 
be gained from this moving in the right direction. So what we 
don't cover today we are likely to cover in future sessions.
    But just a couple of questions on sequestration. Mr. 
Administrator, in your correspondence with the aviation 
industry, you mentioned a plan to close about 100 towers as a 
result of the sequestration. But I believe the FAA sent out a 
list that has something like 235 or 40 towers that might close. 
Can you maybe explain to us what the difference in these two 
numbers would be?
    Mr. Huerta. Certainly. The list that we provided 
encompasses all towers that have 150,000 annual operations and 
10,000 commercial operations. These are our lowest activity 
towers. The principle that we were working from was to provide 
the least impact on the largest number of travelers. Now, the 
list represents the universe of facilities that we feel we need 
to look at.
    We are engaging in discussions with our labor partners and 
the industry stakeholders to actually understand the specific 
operating characteristics of each of those towers. But in order 
to achieve the savings we need to achieve this year, we have to 
cast a very broad net and look at a wide range of towers.
    In terms of how and where we ultimately land, a lot of it 
is determined by the ongoing contract tower review we have 
underway, as well as the savings we can achieve this year. Our 
effort is to minimize the impact on travelers, but these are 
very significant cuts, and we have to look at our lowest 
activity towers in order to preserve the maximum benefit for 
the maximum number of travelers.
    Mr. LoBiondo. Discussing the maximum benefit for the 
maximum number of travelers, recognizing that all towers are 
important, but certainly in some of our major metropolitan 
areas where there are critical concerns about how this will all 
work, and along with staffing, will such staffing-critical 
facilities or areas be identified in advance of sequestration 
and on a continuing basis? And what are your plans to try to 
minimize for these major facilities?
    Mr. Huerta. This is something that we have to look at, and 
we are looking at it on a facility-by-facility basis. The 
characteristics of each facility are quite different, and we 
need to consider the impacts overall. I will give you an 
example. We might have a modest impact through furloughs on 
controller hours at large, complex facilities. But how it 
affects the operations at those facilities will be very 
dependent on the specific facts of that facility.
    Let me give you a specific example. Chicago O'Hare 
International Airport is one of our largest facilities, and it 
has significant impacts across the entire system. It is a 
somewhat unique facility, in that it operates with two air 
traffic control towers, one on the north side of the airfield 
that controls the north side of the airport, and one in the 
center of the airport. It runs at a very tight level of 
staffing. If we need to reduce controller hours, one factor 
that we would need to consider is, in certain weather 
conditions, we may need to close the north tower.
    If we need to close the north tower, that effectively 
removes a runway from operation. We would do everything that we 
can to mitigate against that, but if we have fewer controller 
hours to work with, these are the sorts of impacts that could 
affect the large-hub airports.
    Mr. LoBiondo. OK. I will have some additional questions on 
round two. Mr. Larsen, the floor is yours.
    Mr. Larsen. If we can just continue a little bit on towers.
    Mr. Huerta. Sure.
    Mr. Larsen. Can you tell me a little bit more about how you 
will prioritize air traffic control traffic closures, how you 
came up with 150,000 hours and 10,000 operations?
    Mr. Huerta. Yes. The 150,000--it is annual operations, and 
then 10,000 commercial operations.
    Mr. Larsen. Oh, all right.
    Mr. Huerta. What that represents is the universe of lower 
level activity towers.
    In terms of operations and passengers, they represent a 
relatively small percentage of the total. But it is a large 
number of facilities. The cost of operating these facilities, 
through contracts, through utilities, through personnel costs, 
are quite significant.
    What we are focused on is, again: How do we maximize the 
benefit for the maximum number of travelers? We do recognize 
that some of these small facilities might serve unique needs. 
For example, they might support some sort of a military 
operation. That is a factor that we need to consider as we look 
at our options. But for every facility that we are able to 
preserve, we have to find an offsetting cost saving someplace 
else. So we will just need to continue to work through that.
    Mr. Larsen. So, in that sense, you do have some 
flexibility, but you still have to meet an overall number.
    Mr. Huerta. Correct.
    Mr. Larsen. Yes. Some have suggested that the FAA has--
could avoid furloughs, in part by saving over half-a-billion 
dollars on consultants and $200 million on travel and supplies, 
statements which seem to have been refuted by a fact-checker 
article that ran today in the Washington Post.
    Can you provide FAA's response to the suggestion that the 
saving could be found through consultant contracts and through 
travel and supplies?
    Mr. Huerta. The $500 million figure that is referenced 
represents the universe of contracts that are included within 
our operations account. These contracts are not limited to 
consultants. In fact, our estimate is that only about $21 
million of that number would truly be designated as consulting 
services. That represents only 1 percent of our total contract 
obligations for last fiscal year.
    What is included in this number are some very large service 
contracts, the largest of which is a program called FTI, our 
Federal Telecommunications Infrastructure program. That program 
is about a $228 million program, that is the telecommunications 
infrastructure that underlies the whole air traffic control 
system. This is provided to us by a private contractor, but for 
budget classification purposes, it falls into this larger 
account.
    Mr. Larsen. And the travel and supplies?
    Mr. Huerta. Travel and supplies have been an area where we 
have cut 30 percent over the last year, and I think we have 
made significant improvement in our travel budget. The travel 
that we are preserving is actually travel that is essential for 
carrying out our safety mission.
    For example, an aviation safety inspector needs to actually 
visit a facility to provide inspections or a tech ops employee 
actually needs to visit a facility in order to provide repairs 
and needed maintenance for our facilities. So there is a level 
of travel that is necessary for us to do our job to preserve 
the safety of the system.
    Mr. Larsen. Yes. Mr. Chairman, I see you don't have me on 
the clock, and I want to be respectful of that. I have a couple 
of rapid-fire questions, and then in the second round I will 
probably move on to more mundane issues like the actual 
implementation of the bill.
    But let me ask you this, and I will end with just four 
rapid-fire, yes-or-no kind of questions. On this topic of 
sequestration, it has been suggested, as we have talked about, 
the FAA could absorb possibly this half-a-billion dollars the 
rest of the fiscal year without compromising efficiency. But 
would you, first off, on the following actions, would you agree 
that efficiency would be compromised if we took actions like 
cutting a half-a-billion dollars?
    First off, would the efficiency be compromised if we 
furloughed the vast majority of all FAA employees?
    Mr. Huerta. Yes.
    Mr. Larsen. Eliminating midnight shifts in over 60 control 
towers?
    Mr. Huerta. It would certainly have an impact, yes.
    Mr. Larsen. Closing over 100 control towers.
    Mr. Huerta. Yes.
    Mr. Larsen. Reducing preventative maintenance and 
equipment--provisioning for FAA equipment?
    Mr. Huerta. That introduces into the system a level of risk 
that may result in delays in restoring services if a piece of 
equipment breaks, or if something goes out of service.
    Mr. Larsen. Great. Thank you. And thank you, Mr. Chairman.
    Mr. LoBiondo. OK, thank you, Mr. Larsen. Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. Mr. Huerta, the 
controllers are all in an organization called the Air Traffic 
Organization, or the ATO. Is that correct?
    Mr. Huerta. That is correct.
    Mr. Shuster. And that is a line of business?
    Mr. Huerta. Correct.
    Mr. Shuster. And its operating budget is $7.4 billion a 
year, is that right?
    Mr. Huerta. Yes.
    Mr. Shuster. And the 5-percent cut that applies to the $7.4 
billion would be $370 million for ATO. Does that sound about 
right?
    Mr. Huerta. For a total, yes, that sounds about right.
    Mr. Shuster. So could you find $30 million a month savings 
in a $7.4 billion budget?
    Mr. Huerta. As I mentioned, Mr. Chairman, our focus is 
starting first with a hiring freeze, then focusing on 
contracts. In discussing the contracts, one of the things that 
it is important to point out is that our largest contract is 
the telecommunications infrastructure, so that is one that is 
very important for maintaining the operation of the National 
Airspace System.
    Likewise, we are focusing in other contractual areas, and 
we are taking significant reductions in things like training, 
like travel, consulting services----
    Mr. Shuster. So it sounds to me like you are headed down a 
road to figuring out how to find that $30 million a month----
    Mr. Huerta. But----
    Mr. Shuster [continuing]. Without furloughs, without 
jeopardizing safety. Is that correct?
    Mr. Huerta. But the point is this. Our third largest 
contract is for contract tower services. These are the lower 
level towers that we talked about.
    In addition, what we are shooting for is the amount of 
money that we would need to achieve through furloughs. We are 
making every effort to reduce that number as much as we can. 
But I don't see any way to avoid it.
    Mr. Shuster. You--so you don't think you can find $30 
million a month in savings?
    Mr. Huerta. We have identified a wide variety of savings, 
but I don't think I can completely eliminate furloughs.
    Mr. Shuster. Well, what I would just ask you and challenge 
you to go back there. You know, the history of the FAA has been 
one of financial stumbling and bumbling--before your time, but 
there needs to be real reform in the financial management of 
FAA. And I believe this is an opportunity for the FAA to go 
back and go through these contracts. And it sounds like you are 
doing that. And I know your reputation and your experience 
before is excellent. But this is a time that we really need you 
to sharpen the pencil of the FAA, go back, and I got to believe 
you are able to find $30 million a month in a $7.4 billion 
budget without the threat of furloughs, without the threat of 
endangering safety.
    So, I encourage you to go. This committee stands ready. We 
have been working around the clock, looking at the budgets, 
talking to the Budget Committee. We believe you have the 
flexibility within those lines of business to move money, and 
there just seems to me to be enough there to be able to figure 
this out. So, again, I would urge you to do that.
    Mr. Huerta. The sequester applies by project, program, and 
account, and----
    Mr. Shuster. Right.
    Mr. Huerta [continuing]. We are looking within each of 
those areas.
    Mr. Shuster. Right.
    Mr. Huerta. It does limit our flexibility. But----
    Mr. Shuster. But in project, program, accounts, you do have 
flexibility to move money.
    Mr. Huerta. Within a single PPA.
    Mr. Shuster. Correct.
    Mr. Huerta. Correct.
    Mr. Shuster. Which would be--the ATO is a line of business, 
which is a PPA, correct?
    Mr. Huerta. But the key point is that we need to focus on 
what cuts can we get out of contracts, as I talked about.
    Mr. Shuster. Right.
    Mr. Huerta. We want to minimize the impact on personnel, 
pay, and benefits. Right now, based on where we are, based on 
where our contracts are, I don't see a way to avoid it. We will 
continue to work on it.
    Mr. Shuster. OK. Thank you very much. I yield back.
    Mr. LoBiondo. Thank you, Mr. Shuster. Mr. Rahall?
    Mr. Rahall. Thank you, Mr. Chairman. Mr. Administrator, at 
the risk of beating a dead horse, I have to return to the 
closure of control towers and their effect upon rural 
communities. You heard my opening comments and how important--
and I am sure you know how important these rural airports are 
to the economies, to jobs in rural America. You know, as well 
as I do, how much a sticking point essential air service was in 
the last FAA reauthorization, which we are supposed to be here 
examining today, and how I am sure it will continue to be a 
sticking point in future reauthorization of the essential air 
service program.
    My question is, you know, of the 200-some hit list that you 
issued as far as towers that may be closed around the country, 
there were 5 in my State of West Virginia. My question is, have 
you considered alternatives? I heard you respond to the 
chairman's opening question you look at the numbers and all 
that, the most effected traveling public. But have you 
considered any alternatives to those towers that may be closed 
in rural America?
    Mr. Huerta. Obviously, we are trying to work closely with 
industry to understand the impacts in each of these areas, and 
that is a conversation that we began this week.
    The reality is that we are looking at a series of bad 
choices. As I mentioned, our overall principle has been how can 
we protect the maximum number of travelers. That said, we are 
looking at each of these facilities to understand their place 
and how they contribute within the National Airspace System.
    The challenge that we are going to have is for every one 
that we identify the need to preserve at some level of 
operation, we need to find some sort of a budget offset in 
order to be able to meet the overall sequester total. That is 
going to be the thing that we will need to achieve.
    We have heard from some local sponsors that perhaps there 
is a willingness to step in with local resources, and that is 
something we would be able to consider. But those are the kinds 
of discussions that we are in the middle of right now.
    Mr. Rahall. OK. I am still not sure I heard any 
alternatives to the closures in rural America. But please keep 
that in mind. It is just so vital for so many areas. And I have 
to add weather, as well.
    Mr. Huerta. I understand.
    Mr. Rahall. We have tragic weather events in rural America. 
You know, those small rural airports are essential, as far as 
air weather service, as well.
    Let me ask you one further question on the--on what is 
deemed essential employees. When we failed to reauthorize the 
FAA for a period during the--that tumultuous period in 2011, 
air traffic controllers continued to work as if they were 
deemed essential employees. Why are they not deemed essential 
employees under sequestration?
    Mr. Huerta. The provisions of the Sequester Act are just 
fundamentally different. Previous interruptions in funding have 
generally operated under an assumption that the funding would 
be restored on the back end. It is for that reason that the 
Government has, as a whole, drawn the distinction between 
essential and nonessential appointees.
    The sequestration is a different framework, in that it is 
actually a budget reduction that takes place that we need to 
manage across all of the accounts of the FAA. We can't assume 
that the funds will be restored, because we are not seeing 
anything that would suggest that will be the case. So we have 
no choice but to take the steps that assume that we will need 
to operate at a lower funding level.
    Mr. Rahall. OK, thank you. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Graves.
    Mr. Graves. Thank you, Administrator, for coming in. We 
appreciate it.
    My question is--it is real basic, to be quite honest with 
you. What does this take you--if sequestration goes into place, 
what does this take you back to? Funding levels in what year? 
Staff tells me it is 2010.
    Mr. Huerta. I think it is probably about 2008.
    Mr. Graves. 2008 or 2010?
    Mr. Huerta. There is----
    Mr. Graves. Well, OK. Let's assume 2008. What is so much 
different today--or then than today? I mean everything was 
operating just fine in--is it 2010? OK. So what is so 
different?
    I mean I feel like the sky is falling at any moment now, 
because of sequestration. But yet we are not really--we are not 
going back that far.
    Mr. Huerta. Yes. In the intervening years the FAA's 
operations account has increased by about $910 million. Now 
that is from 2008 to 2012. In that period of time, our 
personnel costs increased by about $887 million. We have been 
absorbing reductions in our nonpay spending for the last 5 
years, and those cost savings have resulted in significant 
savings across the wide variety of accounts.
    I would also like to point out that we have spent a lot of 
money for things the industry wants: to implement things like 
advanced navigation procedures and develop new, much more 
efficient, approaches and departures from airports. We do this 
for a very important reason. The airlines want to see benefits, 
and they want to save fuel, and they want to save on the cost 
of operation in the system. All of that costs us money. It 
costs money to develop and maintain these procedures. So we 
have a much more complex aviation system than we had back in 
2008, and it will continue to become more complex in the years 
ahead.
    I think that we have been successful in achieving savings 
through things like strategic sourcing. But at our core, we are 
a people-based organization, and our people costs have 
increased in the intervening years.
    Mr. Graves. Well, that--you know, more efficient approaches 
in departures into airports and all, I mean, is that an ongoing 
cost? I mean----
    Mr. Huerta. It does.
    Mr. Graves. It looks like that is one of the major things, 
you know, obviously, that you have spent money on. But----
    Mr. Huerta. It is.
    Mr. Graves [continuing]. What did you do differently?
    Mr. Huerta. It is an ongoing cost, because in addition to 
developing procedures, which are new procedures at an airport, 
we then have to maintain them. That carries with it costs 
associated with regular maintenance, with flight-checking, with 
ensuring its safety; all of which represent ongoing costs.
    Mr. Graves. So you are talking about just changing--you are 
coming up with, obviously, new approach procedures, which--you 
are printing those and maintaining--what is it that you are 
maintaining that is going to--that is costing so much money?
    Mr. Huerta. Flight-checking it or providing for----
    Mr. Graves. But you were doing that before. I mean----
    Mr. Huerta. We are flight-checking----
    Mr. Graves [continuing]. Procedures and departure plans in 
and out of airports, I mean, they may have changed, but you 
were doing that before, too, and you were flight-checking them 
before, too, and you were--look, I just don't understand----
    Mr. Huerta. We are flight-checking more of them.
    Mr. Graves. OK, you are flight-checking more of them. And I 
don't mean to belabor this, but you are not going back that 
far. The sky isn't falling. We aren't going to have more 
meteors hit because of sequestration.
    It is just I don't understand why it is that the 
Administration continues to take this attitude that the world 
is absolutely falling apart as a result of this. And yet I 
don't see that much changing, to be quite honest with you. And 
maybe I am completely wrong, but the FAA, which I know very 
well, you know, what you are doing, and your procedures and 
processes and what it takes and all, and I just don't 
understand the--you know, what the attitude is, you know. It 
baffles me.
    Mr. Chairman, thank you.
    Mr. LoBiondo. Thank you, Mr. Graves. Mr. Lipinski.
    Mr. Lipinski. Chairman LoBiondo, Ranking Member Larsen, I 
congratulate both of you on your rising to leadership of this 
subcommittee. I look forward to working with you over the next 
2 years. I want to thank you also for holding this hearing on 
implementation of FAA Reauthorization and Reform Act. And I am 
going to surprise everyone by actually asking a question about 
that Act.
    While this Reform Act was not perfect, it provides guidance 
and predictability to FAA as an agency that develops Next 
General Air Transportation System, and works to meet the day-
to-day needs of the National Airspace System. So, I would like 
to begin by asking about the status of section 221 of the bill, 
which relates to NextGen public-private partnerships.
    We all know that NextGen can't happen if planes don't have 
new enhanced equipment. These upgrades aren't going to happen 
overnight by themselves. That is why I was happy to work to 
include section 221 in the bill, which authorizes the FAA to 
establish an incentive program for equipping general aviation 
and commercial aircraft with communications, surveillance, 
navigation, and other avionics equipment necessary for NextGen.
    Administrator Huerta, can you describe what the FAA has 
done over the past year to implement the NextGen public-private 
partnerships related to equipage?
    Mr. Huerta. Thank you, Mr. Lipinski. That has been a 
discussion that we have been having on a continuous basis with 
the stakeholders in the industry. What we wanted to develop was 
an understanding with industry of how we would measure the 
benefits, and what incentives that they actually need and are 
looking forward to, in order to encourage them to participate 
in the new system.
    That got us very quickly into a conversation about 
operational incentives, as well as financial incentives. An 
operational incentive is essentially: How do I know that, if 
there are advanced procedures, or if I can take advantage of 
new technology, that a controller is actually going to be able 
to allow me to use it? So that is related to developing the 
metrics, and knowing, with certainty, that they will be able to 
realize the benefits of fuel burn, reduced track miles flown, 
and everything that goes with that.
    Our stakeholders want us to deliver metrics for measuring 
the delivery of these operational incentives. One of the things 
that has become very clear in these conversations with our 
industry stakeholders is the financial incentives, while 
important, become less important if the operational benefit is 
delivered. We are working closely with our stakeholders to 
focus on how can we put more precision around those operational 
benefits.
    Mr. Lipinski. Are you saying you are not moving ahead with 
the----
    Mr. Huerta. No, no. But the two are related. The two are 
related. You have to be able to demonstrate the operational 
benefit.
    On the financial benefit side, we do need appropriations 
authority to proceed, but we are continuing to work with the 
stakeholders to frame what financial incentives should look 
like.
    Mr. Lipinski. Thank you. Yes. I can't yield back without 
going on to everyone's favorite topic, here, the sequester. It 
is amazing to me to hear that the sequester would actually be 
worse for the flying public than if we had a Government 
shutdown, where we have--essential employees will have to be at 
work. But it just shows the craziness of what is going on right 
now.
    I wanted to ask a question, because this is what my 
constituents are asking me. Midway Airport is in my district. 
You talked a little bit about O'Hare, which is also important, 
but I want to ask about Midway. What is going to be the impact 
there at Midway? I have heard that perhaps the Midway tower 
will be closed at night, and just wondered what--if that is 
true, and what this would mean for local air traffic.
    Mr. Huerta. Well, Midway Airport is one of those facilities 
where we are considering a midnight closure. But we are in 
conversations with the industry to understand what sort of 
operations would be affected.
    Again, what we are focused on is the universe of facilities 
that fall into a certain category; 150,000 operations or 10,000 
commercial operations or fewer. Then, as it relates to the 
midnight closures, we look at those airports that have the 
smallest number of midnight operations.
    This is exactly the nature of the conversation that we are 
having with the industry stakeholders. We need to understand 
the impacts to the system and determine if there is a way to 
mitigate them. Again, if we identify mitigations, we have to 
find offsetting costs.
    Mr. Lipinski. Thank you. A lot of people have questions, I 
am going to yield back.
    Mr. LoBiondo. Thank you. Mr. Bucshon.
    Dr. Bucshon. Thank you, Mr. Chairman. And thank you for 
your testimony today, and for the work the FAA does on behalf 
of the American people, including people in my district in 
Indiana.
    There has been a threat, because of sequester, the FAA will 
have to furlough the majority of their 47,000 employees, 
putting our Nation's air traffic and airport safety at risk. 
But I personally find this hard to believe, since FAA funding 
has increased 41 percent since 2002, despite the fact that 
domestic flights are actually down by 27 percent in that same 
timeframe.
    In my State, in Indiana over the past 8 years, we have 
streamlined and made more effective State government. And we 
went from being $700 million in debt to a $2 billion surplus. 
In fact, instead of tax increases, we have given every taxpayer 
an automatic refund. When it comes to the number of State 
employees, we have the same number of employees in Indiana that 
work for the State that we had in the late 1970s, and 
universally it is believed in my State that services from the 
State government have dramatically improved.
    With fewer employees, our government has worked better for 
every citizen in the State. I would also like to say that was 
done through attrition and retirements. No one was furloughed, 
no one was laid off. This is making government more effective 
and efficient.
    With that said, I would like--my question, can you remind 
us again what your annual budget is?
    Mr. Huerta. Our annual budget is about $16 billion.
    Dr. Bucshon. $16 billion. And what is your share of the 
sequester cuts that the FAA will have out of your $16 billion 
budget?
    Mr. Huerta. $627 million.
    Dr. Bucshon. $627 million. OK. If the sequester were half 
that size, would that make a difference?
    Mr. Huerta. Yes, if the sequester were a smaller number, 
yes, it would----
    Dr. Bucshon. As some people out there are proposing to 
increase taxes to cover half of it and then still have some 
cuts, you wouldn't have to furlough anybody if you had only 
$300 million in cuts, versus $600 million?
    Mr. Huerta. We are focused on, very broadly, what we can do 
with contracts and what will be our pay and benefits cuts. 
Right now, our planning is at the $627 million level. We 
haven't seen any alternative to that.
    Dr. Bucshon. OK. And the NextGen program--I guess there is 
three programs related to implementation and developing this 
modernization program. And do you have any idea what, 
approximately, the cost overruns are on those so far?
    Mr. Huerta. Our ADS-B program is within its baseline 
budget. You may be referring to the En Route Modernization 
Program that we re-baselined a couple of years ago. It is now 
operating within its new baseline.
    Dr. Bucshon. Because what I have, the data I have, shows 
that of the three key modernization programs, cost overruns 
have a combined total of about $4 billion. And so, my question 
is where does that $4 billion come from if we have this much 
cost overrun, trying to modernize the FAA? Where does that come 
from?
    And, I mean, just for everyone, $4 billion versus $600 
million in cuts to the FAA, where does that money come from? 
Where are you getting that money to continue to have 
inefficiencies in the way that we spend the taxpayer dollar at 
the FAA? I just find it hard to believe that, you know, if it 
is--if we can spend more than $4 billion over what it is 
supposed to cost, that we can't find $600 million in savings in 
a $16 billion annual budget. Do you have any idea where that 
money comes from?
    Mr. Huerta. I am neither aware of which programs you are 
talking about, nor the period of time that you are talking 
about. But as we have testified before Congress for our annual 
appropriations, we have explained where we are in each of those 
programs, and Congress has been supportive of them.
    Dr. Bucshon. So, what you are saying is each time we give 
you more money?
    Mr. Huerta. Every year we come before Congress with our 
program plan for the year, and Congress has been supportive of 
it.
    Dr. Bucshon. OK. So if we give you--so we are giving you 
more money on top of what we normally would appropriate to 
cover that cost overrun. That is what you are saying?
    Mr. Huerta. Again, I don't know what programs you are 
speaking about, or the period of performance that you are 
talking about. So I can't respond directly to----
    Dr. Bucshon. OK, thank you. One last question, then. 
Related to how our State has helped our State government by 
making it more effective and efficient, do you know 
approximately how many employees the FAA had in 2008? Have any 
idea?
    Mr. Huerta. I do not.
    Dr. Bucshon. About 4 years ago. Right now there are about 
47,000 employees.
    Mr. Huerta. Correct.
    Dr. Bucshon. You know how many of those are based in the 
Washington, DC, area? Or is that spread throughout the country 
pretty uniformly?
    Mr. Huerta. Eighty-five percent of our employees are in the 
field and outside of our major centers.
    Dr. Bucshon. OK, great. Thank you, Mr. Chairman. I yield 
back.
    Mr. LoBiondo. Mr. Cohen?
    Mr. Cohen. Thank you, Mr. Chairman, and I appreciate the 
opportunity to serve with you on this subcommittee, and look 
forward to working with you and Mr. Larsen.
    Administrator Huerta, first I want to thank you for all the 
courtesies you have shown Memphis. And you came down and we 
dedicated the historic marker to Lt. Col. Weathers, historic 
Tuskegee airman, at the Memphis Airport, and that was an 
occasion of great significance to my community, and I thank you 
for that.
    How much discretion do you have, if any, in where these 
cuts--I mean they have to go kind of across the board, but do 
you have some discretion in the cuts, as far as which airports, 
or which times, or how you implement them?
    Mr. Huerta. The cuts need to be applied across the board 
within a program, project, or account, as laid out in the FAA's 
budget. The only exempt program is the airport improvement 
program. Aside from that, our remaining three accounts--our 
operations account, our facilities and equipment account, and 
our research account--the cuts must be applied across the board 
there.
    Within each program, project, or account, there is some 
ability to work within the account. But when you are talking 
about an organization that is largely driven by people, that 
flexibility is limited.
    Mr. Cohen. Let me ask you this. You have estimated, I 
believe, that in the larger cities--you said New York, San 
Francisco flights--could be delays of up to 90 minutes. Is 
there any way to--if you didn't do that, if you didn't have 
these delays, would the alternative be risking safety?
    Mr. Huerta. We are always going to err on the side of 
safety. Now, that could mean that we would have a 
disproportionate impact on efficiency. But we are always going 
to be doing everything that we can to ensure the system is 
safe.
    Mr. Cohen. So These cuts, if they come about with 
sequestration, unless the efficiency is sacrificed, which is 
what you are going to have to do, would jeopardize, potentially 
jeopardize, the flying public. Is that correct?
    Mr. Huerta. Well, our focus is on maintaining a safe 
system. Where I think we see the principal cost benefit is if 
there is less efficiency.
    Mr. Cohen. Is there any----
    Mr. Huerta. Principal impact----
    Mr. Cohen. Excuse me, sir, I didn't mean to cut you off.
    Mr. Huerta. No, principal impact. I think I said something 
else.
    Mr. Cohen. OK. Everything that I have heard has been 
referred--and it is important--on commercial traffic, or 
passenger traffic. And that is important. We all fly back and 
forth to Washington, and many people travel all over this 
country and the world. But there is a commercial impact, as 
well. And obviously, Federal Express and UPS deliver a lot of 
product. Is there going to be--mostly they do a lot of their 
work at night. Will there be an opportunity to look into the--
how will this affect their services, and will they absolutely 
positively be able to deliver the next day?
    Mr. Huerta. We had our industry forum a couple of days ago 
where we met with members of industry. Both FedEx and UPS were 
present. We understand the impact on the cargo industry and its 
unique characteristics. That is a factor we need to consider as 
we look at our actions.
    Mr. Cohen. So it is a possibility that, since it is 
nighttime, and there are not as much commercial, that it would 
not be--the traffic wouldn't be interrupted.
    Mr. Huerta. Well, again, we are looking at two factors. One 
is total operations, the other is commercial operations.
    Mr. Cohen. Thank you. Well I would just ask you--and I am 
sure you will--when you look into the cuts, that you will 
consider the impact that that could have on commerce. Because 
what happens to FedEx--used to be what happens to General 
Motors is what happens to America. Well, now it is what happens 
to FedEx. So thank you, sir. Appreciate it.
    Mr. Huerta. Thank you.
    Mr. Cohen. Yield back the balance of my time.
    Mr. LoBiondo. Mr. Meehan?
    Mr. Meehan. Thank you, Mr. Chairman. And let me take a 
moment, as my colleagues as well, to congratulate you on your 
ascension to this seat, and I look forward to working with you. 
And Administrator Huerta, as well, we welcome you and look 
forward to working with you.
    And I particularly, as a congressperson who represents the 
city of Philadelphia and the airport outside the city of 
Philadelphia, but the airport within Philadelphia, we look 
forward to working with you on a number of the efficiencies 
that the FAA is part and parcel of, including the 
implementation of NextGen. So I am grateful for those efforts, 
but look forward to your leadership in helping to push that as 
effectively as we can.
    I know in addition to--one of our challenges has been, as 
you have discussed, looking at all the options, to reduce 
costs. And as part of the Reform Act, there has been direct 
responsibilities to look for ways to streamline the offices, to 
seek greater efficiencies, and to eliminate wasteful practices. 
So, as part of that process, one of the things that I know has 
been undergone has been efforts to seek consolidation in 
various places, including consolidations of the air traffic 
control facilities in certain places.
    Are you familiar in much detail with that planning at this 
point in time?
    Mr. Huerta. Yes. That is a high priority for us, because it 
has the potential to yield significant long-term efficiencies 
for the agency across the board.
    Mr. Meehan. Are you familiar with--I am holding in my hand 
an RFI, which is a request with respect to the air traffic 
control facilities in the Northeastern United States. Are you 
familiar with that project, itself?
    Mr. Huerta. Yes.
    Mr. Meehan. Well, that is good, as well, because on the RFI 
one of the things that I was sort of struck by was the idea 
that you were looking for consolidation--was that you--the 
request is for an interest in properties that can be sold, land 
that can be sold to the United States.
    Why are we selling--why are we looking to purchase property 
when, arguably, there is a great deal of governmental property 
that is out there that is underutilized?
    Mr. Huerta. Well, that is certainly something that we are 
also looking at. But the basic issue that we are looking at is 
these air traffic facilities need an upgrade. We need to 
replace facilities that, in some instances, are over 50 years 
old. Long term, what we need to have is a property interest in 
them to ensure that we do not have ongoing lease costs. Your 
question is----
    Mr. Meehan. Well, what kind of a property interest, though? 
I mean the--you need a property interest.
    Mr. Huerta. But----
    Mr. Meehan. There is a lot of properties that the 
Government already owns. We have a property interest in certain 
locations, don't we?
    Mr. Huerta. Sure.
    Mr. Meehan. I'm speaking--if we have a place in which there 
is a viable, already-owned Federal facility, shouldn't that be 
a preference over purchasing private property?
    Mr. Huerta. It is very specific to the location factors in 
question with that property. Clearly, we will look at it.
    Mr. Meehan. What--tell me what the location factors are, 
and how are they relevant to the decisionmaking.
    Mr. Huerta. Well, we are considering the impact on 
employees. What would relocation costs be associated with 
relocating our employees? What are the utility costs? How is 
the facility hardened, so that it can be a secure facility for 
the management of air traffic? I mentioned that we need access 
to utility services and access to the facility itself. Is it 
well located? Are we able to reach it? There are a wide variety 
of traditional location factors that any business would 
consider.
    Mr. Meehan. Well, I am reading this and it is saying--the 
facility is asking for a facility that is located in the State 
of New York within 150 miles of downtown New York City, but 
located in the State of New York. Why must it be located in the 
State of New York?
    Mr. Huerta. The principal factor we are considering is how 
to minimize the impact on the existing employees, who are 
currently based on Long Island.
    Mr. Meehan. And what are the--they are based in Long 
Island.
    Mr. Huerta. Long Island, New York.
    Mr. Meehan. Where one of the factors is cost of living, and 
things of that nature?
    Mr. Huerta. That is a factor throughout the entire 
Northeast.
    Mr. Meehan. So if there is a region in which the cost of 
living may be cheaper than actually living in New York, is that 
a factor that will be considered, as well?
    Mr. Huerta. We are considering the all-in cost of operating 
the facility over its useful life.
    Mr. Meehan. Are you familiar with the Willow Grove Naval 
Air Station?
    Mr. Huerta. I am not.
    Mr. Meehan. Is it something that you can get yourself 
familiar with in time to be responsive to this January 31st 
request? It is within 150 miles of New York City, but it is not 
within the city of New York or the State of New York.
    So I don't understand why there would be a solicitation 
that first would ask that we potentially purchase private 
property, when we own public property, as a government entity 
already. The Willow Grove Naval Air Station has been BRAC'd, 
has been reduced, has security, has a lower cost of living than 
that which exists in New York for your employees, and a variety 
of other kinds of infrastructure that is already there, 
including infrastructure in which they have been handling 
flights for a period of time. Wouldn't those all be factors 
that will be, I think, naturally conducive to sort of a 
retrofitting of this?
    Mr. Huerta. As I mentioned, I am not familiar with the 
site. It is certainly something we can----
    Mr. Meehan. Can I have your commitment, as this process 
goes along, that we will not automatically have a preferential 
consideration for one State? And then explain to me why that 
preference would be there.
    Mr. Huerta. You have my commitment to certainly look at the 
site.
    Mr. Meehan. You didn't tell me, though, why we would prefer 
one State over another. Why?
    Mr. Huerta. As I mentioned, it is to minimize the impact on 
the employees based on Long Island.
    Mr. LoBiondo. Excuse me, Mr. Meehan, you can go to round 
two, if you choose. We are going to try to respect the other 
Members. Thank you. Mr. Carson?
    Mr. Carson. Thank you, Mr. Chairman. Administrator Huerta, 
you mentioned in your opening statement the issue of unmanned 
aircraft systems, or drones. The reauthorization allows for 
safe integration of civil, unmanned systems into our national 
airspace by 2015 for missions such as search and rescue, 
wildlife, and weather research, border patrol, and other law 
enforcement purposes. As a former police officer, I am 
particularly concerned about the challenge of balancing the 
risk of privacy intrusions with the benefits of protection from 
physical harm that drone technology can provide.
    The reauthorization calls for the FAA to work in 
collaboration with other appropriate Government entities to 
develop an authorization or licensing process for civilian 
drone operations. Please tell us what other Government entities 
the FAA is working with, and the status of the drone 
collaboration that is taking place right now. I have seen 
reports about the work kind of falling behind schedule, and 
would like to know if this is correct, and what can we do on 
the subcommittee to get things on track.
    Mr. Huerta. Thank you, Mr. Carson. Unmanned aircraft 
represents a very significant challenge for integration into 
the National Airspace System. It also represents a very 
significant opportunity. It is something that we are taking 
very seriously.
    Just a couple of weeks ago we released the screening 
information request, inviting proposers to compete for 
designation of one of the six unmanned aircraft test sites that 
are called for within the reauthorization. We are expecting 
that we will receive a lot of proposals. There has been very 
significant interest in this. The purpose of the test site 
designation is to develop data on how these types of aircraft 
operate within the National Airspace System, and how they can 
be safely integrated with manned aircraft that also operate 
within the National Airspace System.
    As we were developing the screening information request, 
one thing that we learned--and I touched on it in my opening 
statement--were that a lot of concerns were being raised with 
respect to protecting individuals' rights to privacy. So it is 
for that reason that we worked closely with other agencies 
across the administration to develop a framework. At the same 
time we are seeking proposals, we are also soliciting comment 
on a proposed implementation of a privacy policy. Whoever is 
selected would be expected to have a proposed privacy policy. 
We have received a lot of comments on this, and we will 
continue to receive a lot of comments.
    With respect to safe integration of UAS, we have worked 
very closely with our colleagues in the National Aeronautics 
and Space Administration, the Department of Defense, and the 
Department of Homeland Security. We have also had a lot of 
conversations with State and local government entities. You 
mentioned law enforcement as being one area where there is a 
significant level of interest. We are expecting that a lot of 
the proposals we will see will be in support of that particular 
interest.
    Mr. Carson. Thank you, Mr. Chairman. I yield back.
    Mr. LoBiondo. Thank you. Mr. Webster.
    Mr. Webster. Thank you, Mr. Chairman, for hosting this 
timely discussion. And thank you, Administrator, for being 
here. I have a question, a local question.
    I represent the Orlando area in Florida. Orlando 
International Airport is at or close to one of the final--
largest final destinations in the world. And we get over 40 
million visitors every year to our fine parks. And I would 
imagine everybody on this panel has been there at some point in 
time in their life, maybe even yourself.
    Several years ago, they purchased--the Orlando 
International Airport purchased some property next to their 
airport for about $54 million. The U.S. Code requires that 
airports should be as self-sustaining as possible. And so their 
idea was to develop that with some commercial ventures so that 
it would become more self-sustaining. Since 2007, they have 
been attempting to work through the environmental process 
necessary to get approval to use that land and began holding 
hearings in 2008. And much of that has been stalemated, and 
here is why it was stalemated. And I am just looking for 
advice, or an answer to a question with advice.
    The general counsel for the FAA has denied approval based 
on National Environmental Policy Act and--because they need a 
suitor that would be developed in a 5-year period of time, from 
the time of approval. They have tried to get people to relocate 
their maintenance facilities, and so forth. However, none of 
them want to relocate without NEPA certification.
    Mr. Huerta. Yes.
    Mr. Webster. So it is like a--we are against a brick wall. 
We can't get anybody to come unless we have approval, we can't 
get approval unless we have somebody coming. And so I am just 
asking. Have you got any advice for me?
    Mr. Huerta. Mr. Webster, I am going to have to get back to 
you. I am not familiar with that particular issue, but I can 
certainly consult with my staff and we can get back to you and 
ensure we have the right people available.
    Mr. Webster. Could somebody work with me on maybe coming to 
a solution?
    Mr. Huerta. Sure.
    Mr. Webster. OK.
    Mr. Huerta. Absolutely.
    Mr. Webster. Thank you. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Maloney?
    Mr. Maloney. Thank you, Mr. Chairman, for the opportunity 
to serve with you on the subcommittee; I am looking forward to 
it very much. And to Mr. Larsen, as well.
    I am tempted to--as the only New Yorker on this 
subcommittee, I am tempted to correct my colleague from 
Pennsylvania on the--on his misguided ideas on the superiority 
of all things located in the State of New York. But because we 
have limited time and out of respect for Mr. Huerta, let me 
just focus on a couple of quick things.
    I am very curious about the impact on small airports. I 
represent the Hudson Valley.
    Mr. Huerta. Yes.
    Mr. Maloney. Duchess County Airport is on your list of 
facilities that may face tower closures. Would you just say a 
word about what that means in practical terms for a small 
airport like Duchess County?
    Mr. Huerta. Well, what it means is if we find ourselves in 
a situation where we need to close the tower at a smaller 
airport, then the airport converts to a status of a nontowered 
airport. There are procedures that are in place to operate 
within a nontowered airport. In general, we provide approach 
control to the facility, and then there are provisions that 
kick in, in terms of how you actually arrive and depart the 
airport.
    In general, it is less efficient, because in inclement 
weather, we rely on one in, one out, meaning that an airplane 
needs to confirm that it is off the airfield before another 
aircraft can be launched or can arrive at the airport. But 
there are well-established procedures in place to operate at a 
nontowered airport.
    Mr. Maloney. Is it fair to say, though, that if you had 
your preference, as a matter of safety, as a matter of 
efficiency, you would never operate an airport in that manner 
if you could avoid it?
    Mr. Huerta. Well, I think it is fair to say that we are not 
going to do anything that isn't safe. If you don't have a tower 
on the facility, it is certainly going to be less efficient, in 
order to preserve safety.
    Mr. Maloney. Can I ask you the same question with respect 
to the airports--many of the folks who I represent rely on the 
airports in the New York City----
    Mr. Huerta. Yes.
    Mr. Maloney [continuing]. Metropolitan area. Could you say 
a word about the impact on those airports and what we can 
expect?
    Mr. Huerta. Well, the New York facilities are responsible 
for some of our most complicated airspace in the NAS. In fact, 
it is understood that how New York goes, in terms of 
efficiency, does impact the overall National Airspace System.
    The New York facilities are complicated for us to staff and 
to maintain, and so any reduction in hours in those facilities 
does create the potential for them to operate less efficiently 
and to introduce delays into the system. That is one of the 
factors that we are currently studying carefully.
    Mr. Maloney. You know, I am curious. One of the things that 
I think is lost in this conversation often is that this is not 
a debate about whether we make cuts, since all of us agree that 
cuts are necessary. But it is a debate about our choices and 
our prioritization of choices. I was just on the House floor 
talking about the cuts to West Point, one of our most 
extraordinary American institutions, and the fact that we are 
going to make the cadets suffer and do with less because we 
won't make other choices about cuts.
    And so, I am curious whether you have ever looked at the 
impact of, for example, reducing the benefits to corporate jet 
owners that would also be possible, as a reduction--as a--to 
end a tax expenditure, and the impact that might have, or 
whether it would have any impact on the efficiency and safety 
of our airports.
    Mr. Huerta. Well, I think this is all part of the larger 
fiscal discussion that Congress and the administration have 
been debating for many years. Over the last couple of budgets 
the President has made proposals to provide additional 
resources for the aviation system. But Congress and the 
administration haven't been able to reach agreement that 
defines what a way forward would look like.
    So now we find ourselves in a situation of looking at 
reductions. I think that the contribution of the aviation 
system, as a whole, is very significant. I think it is 
important that we all come together and figure out how best to 
support this important industry that in turn, supports the 
economy. It is our largest export industry.
    Mr. Maloney. Well, thank you, Mr. Huerta. Thank you for the 
work you do. Thank you for the service you provide to the 
American people. I think that it is very easy to criticize the 
work of folks in our Federal agencies, but the work you do 
every day gets us around the country and makes us safe. So 
thank you for your service. And I yield back my time.
    Mr. Huerta. Thank you, sir.
    Mr. LoBiondo. Mr. Massie.
    Mr. Massie. Thank you, Mr. Chairman. Thank you, 
Administrator Huerta. I represent the district of Kentucky that 
contains the Cincinnati Airport, CVG Airport. So air travel is 
very important to our district. And having spent most of my 
career in business, and having spent a recent stint as a county 
administrator, I can appreciate the task that you have in front 
of you in balancing your budget in the face of the belt-
tightening that we have.
    But usually it comes down to prioritization when you are 
trying to make the cuts that are necessary to balance the 
budget. And so, within my district I have--you know, I am new 
to Congress, but I have received hundreds of phone calls 
already, and I have received phone calls from people who are 
concerned about privacy issues of unmanned aircraft, and also 
from pilots in our district who work at CVG about the safety of 
them. So--and I understand that is going to be a tough problem, 
integrating those unmanned aircraft into the airspace. But 
the--none of the constituents in my district have called me and 
kind of pounded on me and said, ``We need to integrate unmanned 
aircraft now,'' or ``today,'' but they all care about passenger 
air travel.
    So, the question I have for you is, if you had the 
flexibility to do it, if you could delay the implementation of 
the unmanned aircraft systems that you have been tasked with 
doing, how much could you save from the budget, and would that 
help with the sequester belt-tightening?
    Mr. Huerta. These are all difficult choices. I think that 
what we are actually spending right now out of the FAA budget 
in our unmanned aircraft office represents a relatively small 
percentage of the budget, because what we are principally 
focused on is the designation of a national policy, as well as 
the designation of the test sites.
    The determination we need to make is for safe integration 
of these aircraft into the National Airspace System. Longer 
term, as we hit the 2015 deadline for integration, and as UAS 
become more prevalent through the NAS, they would become a 
significant operating cost. But that is not the case today.
    Mr. Massie. OK. Can you give me a rough idea of what 
portion of the budget--I don't entertain any fantasies it would 
solve the sequester by delaying this indefinitely. But, you 
know--and my experience tells me that you are going to have to 
find a lot of small cuts----
    Mr. Huerta. Yes.
    Mr. Massie [continuing]. Across the board. So what would be 
the order of magnitude of the budget for implementing the 
unmanned aircraft systems?
    Mr. Huerta. I think I would be better advised to take an 
IOU and actually get back to you with an exact number there.
    Mr. Massie. OK. Could you put that in the written portion 
of the record?
    Mr. Huerta. Sure.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 79556.006
    
    Mr. Massie. OK. Thank you very much. I yield back my time.
    Mr. LoBiondo. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Huerta, I--you 
know, there has been a lot of talk about your flexibility here, 
and I am still trying to--it would have been better if you 
brought, like, a chart that showed, you know, how things were 
affected. We even have these--you know, you could have 
displayed it up there.
    But this is a statement today from an OMB official, and he 
said, ``The way the sequester law is written is that even 
underneath the account, even at the program, project, and the 
activity, they all need to be cut by the same percentage.'' And 
then he goes on to actually say, ``So, for example, the FAA, 
they have to cut resources in a way that is going to impact the 
air traffic controller workforce.''
    What he talks about here are program, project, and 
activity. Can you sort of explain how that flows down to your--
the controller workforce? Are they an activity? What are they--
what--in OMB-speak, what are they?
    Mr. Huerta. The program, project, and activity are the 
actual budget lines within the budget. It is cut according to 
the nature of the accounts that we have.
    Starting at the top, we have four accounts that are funding 
categories for the FAA: the operations account, which is the 
largest; the airport improvement program is the next largest; 
then the facilities and equipment account; and then the 
research and development account, which is very small.
    Each of those accounts are allocated across the lines of 
business of the FAA, one of which is air traffic. In order to 
achieve cost savings in the operations account, I have to find 
the equivalent percentage out of that particular activity 
within that account. That account is largely people. I am doing 
everything that I can to focus on cutting contracts, but that 
is why it comes down to furloughing controllers.
    Mr. DeFazio. And there is no--I mean you can't say, ``Well, 
we are just going to do administrative cuts,'' not--things that 
would affect it longer term--it would have an impact on the 
organization at an administrative level, but it has actually 
got to get down to the operations level.
    Mr. Huerta. Yes. The key point is that we are a field-based 
organization. We are a very large organization, but 85 percent 
of our people are actually in field facilities providing 
aviation safety and air traffic functions.
    Mr. DeFazio. And I haven't--we haven't recently revisited 
this issue but, you know, we have been concerned over a number 
of years about the attrition, the retirements, the number of 
fully trained controllers versus controllers who are still--I 
mean how many, you know--where is your workforce now, in terms 
of a percentage of 100 percent?
    Mr. Huerta. Well, our total headcount now is about 47,000 
people, of which about 15,000 are controllers. This is the 
largest single category of our workforce. That category does 
not include any of the frontline supervisors or managers that 
actually run the air traffic facility, nor does it include the 
people who maintain the equipment that the controllers use to 
actually carry out their jobs. Our next largest category of 
employees are aviation safety inspectors. Those are individuals 
that perform the safety oversight function for all segments of 
the aviation industry.
    In terms of the composition of our workforce, we are an 
older workforce. We do project that between now and 2014, about 
a third of our workforce will become eligible to retire. Now, 
that is the become eligible; that is not to say that they 
actually will retire. But it is for that reason that, a couple 
of years ago, we began the process of really trying to bring up 
a new class of employee into the system. It takes us a couple 
of years to train a controller, so there is a natural bubble 
that you have if you are expecting a lot of retirements. You 
have to hire up in anticipation of those requirements.
    Mr. DeFazio. Mightn't, you know, people getting notices of 
furlough who are senior--I assume if you apply this, there is 
probably some rules about--personnel rules. You can't just say, 
``Well, we are just going to apply the rules to those who 
aren't fully qualified, but not apply the furlough to those who 
are fully qualified,'' because they are all under the same 
bargaining agreement. Correct?
    Mr. Huerta. Well, we need to find savings across the entire 
workforce. If we were to make some exception in one area, it 
actually means we have to hit in another area harder.
    Mr. DeFazio. Right.
    Mr. Huerta. That actually introduces more inefficiency into 
the system.
    Mr. DeFazio. OK. Would--just last question. Thank you, Mr. 
Chairman, for the tolerance. But don't you believe it might 
accelerate your retirements if, you know, these senior people 
start getting notices that, well, you are going to be 
furloughed one or two--it says per pay period. Is it biweekly?
    Mr. Huerta. A pay period is 2 weeks.
    Mr. DeFazio. OK. Do you think that would hasten 
retirements?
    Mr. Huerta. I can't speculate on it. We have been operating 
in a difficult fiscal environment for the last couple of years. 
But it all depends on what options are available to the 
individual employee. We have seen an acceleration of 
retirements, just due to budgetary uncertainties.
    Mr. DeFazio. OK, thank you. Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you. Mr. Daines?
    Mr. Daines. Thank you, Mr. Chairman. I am Steve Daines from 
the State of Montana, another one of these rural States. And 
the gentleman from West Virginia also had some concerns about 
what is going on in some of the States that are sometimes 
called flyover States, but we do have airports.
    Mr. Huerta. Mr. Daines, one of my favorite States is 
Montana.
    Mr. Daines. Oh, thank you.
    Mr. Huerta. I have visited it many times.
    Mr. Daines. We share a common favorite.
    Mr. Huerta. Yes.
    Mr. Daines. Well, and I am grateful for, truly, what you do 
to provide safe travel. My wife and four children are grateful, 
too, that I can do this job because of safe and reliable 
airspace.
    I have spent 28 years in the private sector. I have just 
joined Congress. And many times I have had to deal with these 
kind of situations, the curve balls that come of finding ways 
to tighten up budgets in the middle of fiscal year.
    Relating back to maybe the Montana question, the 
eliminating the midnight shifts, some of the air traffic 
control, as well as reduction in towers, any sense of about how 
many dollars that might represent, that we are looking at for 
savings? And this is not a Montana--just looking at the 60 and 
the 100 that you talked about, the 60 ATCs and the 100 towers.
    Mr. Huerta. It is dependent on the status of the facility, 
whether it is a contract tower or whether it is an FAA tower. 
In general, what I am expecting is that as a result of the 
closures of contract towers, the cost savings would be in the 
area of somewhere between $45-$50 million this year.
    Mr. Daines. OK. In this fiscal.
    Mr. Huerta. Yes.
    Mr. Daines. And I was chatting--I am kind of a numbers guy 
at heart running businesses, and I know you never appreciate 
people looking over shoulders on budgets. My understanding is 
we were about $100 million underspent in the first quarter. 
Now, there may be some seasonality issues, I understand that. 
Could you----
    Mr. Huerta. Sure.
    Mr. Daines [continuing]. Talk to that a little bit?
    Mr. Huerta. Yes. We do have seasonal issues. In the first 
quarter we did, indeed, run at less than one-quarter of our 
total Federal allocation. But we also ran ahead of what our 
typical first quarter costs have been for the last 2 years.
    The reason for that is that many of our large services 
contracts get paid in the second half of the year. For example, 
I mentioned the telecommunications program that we talked about 
earlier. The second half of the year also includes the summer 
travel season. That is when we would ordinarily experience 
significant overtime, because we don't hire up for the summer. 
What we actually do is cover the increased demand on the air 
traffic system through overtime.
    Mr. Daines. Do you--I have seen this phenomenon, I guess, 
in a number of agencies, where the last month of the fiscal, 
the last week of the fiscal, is kind of a spend it or lose it. 
Do you have that experience at the FAA?
    Mr. Huerta. That is something that I certainly have been 
trying to stamp out ever since I got here.
    I also come out of business. My own experience is that the 
important thing is to effectively manage your resources 
throughout the year, so as to ensure that you are hitting your 
budget limit exactly as you should at the end of the year.
    The problem that we have with the sequester is, in 
business, you would have much more flexibility. It is the 
determination that this project, program, and activity must 
receive an equivalent percentage of cuts that limits our 
flexibility. This means that we are not able to take a long-
term view, and that really challenges us.
    Mr. Daines. Well, I appreciate your efforts to try to stamp 
out that Dilbert hockey stick at the end of the fiscal year, 
which is part of the problem here in this town, of spend it or 
lose it, in terms of accountability.
    One other question. There was a letter out last Friday to 
the industry, where you and Secretary LaHood stated you 
expected airlines to change their schedules and perhaps cancel 
flights. Have you heard anything from the airlines that might 
back up that prediction?
    Mr. Huerta. It is a little early to tell. We met with the 
airlines earlier this week and talked about what the impacts 
would be. One of the things that came up in that conversation 
was a discussion of a concept called debanking. What happens at 
large hub airports is that airlines tend to put their flights 
in a peak period of time, and that is called a bank of flights. 
What that does is it minimizes connection time.
    One of the points that was made by the air carriers was 
whether that might be a factor that they could consider to 
change. But they also have to consider what happens on the 
other end, particularly for international flights. For example, 
Europe is closed at night. So that limits the ability of an 
airline to adjust their schedule on our end, because they have 
to work within whatever the hours of operation are in that part 
of the world.
    It is a complicated undertaking. This is something that 
each carrier is going to need to work through. They need to 
consider the tradeoff of frequency versus reliability if they 
are operating with a tighter window, in terms of scheduling 
flights. That is a decision that they will each make 
individually.
    Mr. Daines. Yes.
    Mr. Huerta. We have a command center program, where we get 
together with the airlines every day. One of the things that we 
want to understand is what their plans will be, because that 
affects what our plans need to be.
    Mr. Daines. Thanks, Mr. Chairman.
    Mr. LoBiondo. OK, thank you. Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman. Thank you, Mr. 
Huerta, for being here. Mr. Huerta, I am just curious. Not 
curious. Bottom line, $627 million worth of cuts is what you 
are looking at at the moment. Hopefully some smaller number if 
somebody gets some little sanity around here. But a big cut. Is 
that a fair----
    Mr. Huerta. That is fair.
    Mr. Capuano. My presumption is that you don't have an 
account somewhere in the FAA that is labeled ``waste, fraud, 
and abuse.'' Is there a line item with that title?
    Mr. Huerta. I do not have a line item with that title.
    Mr. Capuano. Yes. And with your business background, I am 
sure that you are very keen on getting rid of any waste, fraud, 
and abuse that might be in the accounts. Is that a fair 
statement? Or do you like waste, fraud, and abuse?
    Mr. Huerta. That would be a fair statement. I do not like 
waste, fraud, and abuse.
    Mr. Capuano. I was hoping to hear that. I am glad to hear 
that.
    I guess--I hope you realize that Members of Congress are 
going to be hit with the sequester as well, on our office 
budgets, and we are going to be cutting around the same 
percentage, and that range is what we have been led to believe, 
in the 5-percent range. And from what I know, I have been 
hearing a lot of Members and committee Chairs telling me that 
they may have to lay off staff, and they may have to lay off 
committee staff, or leave positions unfilled. So, if we can't 
do it, is it fair and reasonable to think that you should be 
able to do it without cutting personnel?
    Mr. Huerta. Everything that I am seeing today indicates 
that, in spite of all the work we have done on contracts, and 
with hiring freezes, I still don't see a way to get to the $627 
million without furloughing employees.
    Mr. Capuano. And I apologize being out today. I am on 
another committee that has Chairman Bernanke there. I assume 
that no one here suggested any specific cuts that would total 
$627 million. Did I miss that today?
    Mr. Huerta. No.
    Mr. Capuano. So that you are faced with a situation that is 
obviously impossible. With--and I believe--it is my 
understanding that the FAA's top priority is safety, as it 
should be. We all accept that, we all agree with that. We all 
embrace it and hold it as an absolutely firm commitment. I know 
you share that, so I don't have to ask that question.
    But within the bounds of safety, within the bounds of 
safety, I guess--I am going to ask you the same question I 
asked Chairman Bernanke. As I read through these cuts, are any 
of these cuts things that you think should happen, regardless 
of economic situations? Do you think that we should be cutting 
TSA employees? Do you think that we should be closing airports? 
Do you think that we should be closing down or limiting air 
tower operations? Do you think that that is a good thing for 
the country, no matter--again, regardless of the economic 
situation we face at the moment, is this something you would be 
doing, if you weren't forced to be doing it?
    Mr. Huerta. The aviation industry is a significant 
contributor to the economy of the United States. We want to 
maintain as safe and efficient an aviation system as we 
possibly can. We are never going to compromise on maintaining a 
safe system, so what suffers is efficiency. If the country 
wants a less efficient aviation system, we will manage to do 
that.
    Mr. Capuano. So I guess--is it fair to paraphrase what you 
are saying, that the sequester, as it applies to the FAA in 
today's economy, in today's world, and our desires and demands 
as an economy, that the sequester as currently enacted and as 
what you will be implementing as of Friday is basically a 
stupid idea?
    Mr. Huerta. I think that I would say that it is a difficult 
program to administer under the rules that it is structured 
under.
    Mr. Capuano. Well, I--that is a very nice way to--in my 
opinion, I think you just said it was a stupid idea, but that 
is OK. I wouldn't want to put words in your mouth.
    I guess as you make these cuts, you are going to make--
again, first thing should be safety. We all agree with that. No 
cuts should be made that will impact safety whatsoever. I fly 
as frequently as anyone. So I am not looking to be unsafe, 
either.
    But there will come a time when you have to decide which 
airport to close, or which air tower to close. And I would hope 
that it is taken into consideration that those of us who are 
supportive of the FAA's mission, both in safety and economic 
activity, that that is taken into consideration.
    When you have to make these tough choices--and I say this 
as a former mayor. I had to make cuts, too, my first 2 years as 
mayor, 15 percent per year for 2 years in a row for the same 
reason. There were cuts imposed on the city at the time. First-
year cuts really not too tough, we did them, nobody liked them, 
but we did things that people didn't see. Apparently you can't 
do that. We did a lot of capital cuts. With the AIP being 
exempted, you won't be able to do that as much. But so be it.
    But there comes a time when you have to make a decision. I 
can only plant two trees. Guess which decision I made? The 
trees went to the people that understood that Government played 
a positive role. When it comes time to close towers, when it 
comes time to cut those TSA employees so that my constituents 
are standing in longer lines, my hope is that you remember who 
stood with the FAA, who stood with the flying public to try to 
avoid these stupid cuts. Thank you, Mr. Administrator.
    Mr. Huerta. Thank you.
    Mr. LoBiondo. Mr. Radel.
    Mr. Radel. Thank you, Mr. Chair. Thank you so much for 
being here today. I am actually going to deviate off sequester 
for a second here.
    The FAA, it appears, is planning to impose a new regulation 
regarding what is called one engine inoperable restrictions. 
Just for a real--a simple context for everyone here, basically 
around airports, as a matter of safety, there are restrictions 
on how high you can build a building----
    Mr. Huerta. That is correct.
    Mr. Radel [continuing]. Near the airport. But it appears 
that a new regulation would create more limits and stretch it 
out even further, expanding the range. We really don't have a 
lot on this, except a PowerPoint presentation here given out at 
what appears to be at some sort of a conference.
    Just a real quick question first, Mr. Huerta. Can you tell 
me how many one engine inoperative takeoff incidents resulted 
in any fatal crashes last year or the past few years?
    Mr. Huerta. None have resulted in fatal crashes.
    Mr. Radel. No fatal crashes. So we know the FAA is here to 
protect Americans, ensure our safety, safety of the airspace, 
but there are also real-world consequences. You come with a 
background of business.
    With that said, can you tell me? Is this going to happen? 
Is this stringent rulemaking, even though we have a low-
probability occurrence, is this in the works?
    Mr. Huerta. Let me talk first about what it is.
    Mr. Radel. Sure.
    Mr. Huerta. It is a safety regulation to deal with the 
possibility, as rare as it might be, that one engine going out 
in an aircraft on departure would need to have a larger clear 
zone so as not to collide with a building or structure within 
the immediate area of the airport.
    This is an issue that we are continuing to review. We are 
working with, and seeking the input of, interested parties to 
come up with a balanced public policy solution, in addition to 
assessing the economic impact on airports, airlines, and the 
local development efforts that are impacted. We are committed 
to supporting the airports in their efforts to be good partners 
in the communities they serve. We haven't made any decisions; 
we are still in the fact-finding stage. These conversations 
will continue.
    Mr. Radel. OK, good. That is all reassuring, because in the 
State of Florida and the district I represent, potentially this 
would negatively impact us. There are--within that presentation 
to--Miami in particular would be severely impacted by this. And 
it kind of scares me when I see this being kicked around, that 
even though we don't have, you know, evidence of fatal crashes, 
again, I understand protecting people. But when I see--we need 
something with--quote and in big capital letters--``TEETH.'' We 
need something with teeth.
    Will you conduct a cost benefit analysis as this moves on 
to determine whether this is necessary or not?
    Mr. Huerta. We are certainly considering all the input that 
we have, and we have to find the right balance of economic 
impact and safety, which we are committed to doing.
    Mr. Radel. OK. All right. Thank you. I yield the rest of my 
time. Thank you.
    Mr. Huerta. Thank you.
    Mr. LoBiondo. Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Mr. Chairman, and 
congratulations to you. This is my 25th year on this 
subcommittee, so obviously I think it is a very important and 
fascinating subcommittee, and I know you will be a great 
chairman for it.
    Mr. Administrator, I apologize to you because I had to be 
at another committee hearing for a while, and I didn't get to 
hear your statement. And probably you have responded to this, 
but I assume you have seen the release put out by Chairman 
Shuster in which he says the United States continues to see a 
smaller airline industry, domestic flights are down 27 percent 
from 2000 traffic levels between 2002 and 2012, FAA's 
operations account has increased by 41 percent, or almost $3 
billion. I would like to know your response to that.
    And then, secondly, that same release says there are $2.7 
billion in nonpersonnel operations costs, including $500 
million for consultants. And I have been told that many or most 
of those consulting contracts have been given to former high-
level FAA employees or retired FAA employees, and also that 
almost every contract that the FAA puts out goes to a company 
that has former high-level FAA employees. And I would like to 
know if you have ever looked into that. It is referred to at 
the Pentagon as a revolving door, but I understand that there 
is a revolving door--a pretty active revolving door--at the 
FAA. And I would like to hear your response to both of those 
things.
    Mr. Huerta. Thank you, Mr. Duncan. Taking the first 
question, it is true that overall domestic flights are down 
from 2007. But in key cities, the 30 or 35 core airports, 
traffic has rebounded to 2008 levels. What we have seen is a 
concentration of traffic within these large and complex 
systems.
    While we have been reducing our out-of-pocket costs, we 
have been increasing capacity in the National Airspace System 
in several key areas. Let me give you a few examples.
    We have new runways at Washington Dulles Airport, 
Charlotte, Atlanta, Denver, and Chicago that give us greater 
capacity at these critical and large hubs. We have also been 
implementing more navigation procedures at a large number of 
airports, including area navigation and required navigation 
performance, which are procedures that enable air carriers to 
fly much more fuel-efficient routes. But the development of 
these procedures is something that costs money.
    In addition, we have spent a lot of time developing new 
techniques that enable us to have simultaneous arrivals at 
closely spaced parallel runways which also provides additional 
runway capacity. These represent additional operating costs to 
the system.
    I think the key point is that, yes, while domestic flights 
in total might be down, what we are seeing in our largest and 
most complex facilities is that flights are actually up, and 
that airspace is more complex.
    Let me turn to your second question, and that is the 
account that you referred to of $500 million in consultant 
fees. That is a large account that includes a variety of our 
services contracts. For example, the largest contract in that 
is the FAA's telecommunications infrastructure contract, which 
annually has a cost of $228 million. Since it is not a 
construction contract, it falls, as a services contract, into 
this particular category. That contract is the communications 
backbone for the entire air traffic control system.
    Of the $500 million, our estimate is that only about $21 
million is something that you would truly call consultant 
services, which includes our environmental, industry, and 
management consultants.
    I also want to address the point that you raised with 
respect to our procurement process. That is something that I 
have taken an active interest in. We have a very structured 
process of selecting contractors, which does not involve me or 
anyone in my office. What it is very focused on is ensuring 
that we are getting the best value for the Government, 
according to a very structured and data-driven process.
    Mr. LoBiondo. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. You know, in your 
letter last Friday you stated in that letter part of an ongoing 
dialogue, I guess, between the FAA, unions, aerospace users, et 
cetera, which of these groups have been part of developing this 
plan to furlough the some 47,000 FAA employees, you know, to 
close the towers, you know, the midnight shifts? Which ones 
have been in part of that plan involved with you?
    Mr. Huerta. What we have developed at this point is our own 
internal proposal of a way to get there. We have begun the 
process of working with all of the stakeholders across the 
industry, both the workforce as well as the users of the 
system, to talk through the details. That work is ongoing.
    Mr. Meadows. So the dialogue that you have been having 
really hasn't included them as part of the plan. You have come 
up with a plan and now you are conveying that to them? I----
    Mr. Huerta. No. We presented it as a universe of things we 
want to talk about, and we are seeking their input before we 
finalize anything.
    Mr. Meadows. OK. So there is not a plan to really furlough 
at this point.
    Mr. Huerta. There is, at this point, a scenario where what 
we look at is that based on what we know about our contracts, 
what our efforts resulted in, and the benefits that we are 
seeing from the hiring freeze that we have put in place. Based 
on this information, we see no way to close the funding gap 
without looking at furloughs. But that is a conversation that 
is ongoing.
    Mr. Meadows. OK. So let me make sure I am clear. There is 
not a plan specifically today to furlough any employees. Is 
that correct?
    Mr. Huerta. There is a program that we have developed, and 
we are going to use the coming weeks to work with the industry 
to finalize the details.
    Mr. Meadows. OK. So in any rhetoric that we have with 
regards to ``We are going to furlough X number of employees for 
this length of time'' is not in place at this point. Is that 
correct?
    Mr. Huerta. We don't see a scenario where we can do this 
without furloughs. What we are looking to do is minimize the 
number of furlough days.
    Mr. Meadows. OK. And you have made that decision without 
input of unions and the aerospace users, is that correct?
    Mr. Huerta. That is a discussion that we are having right 
now, in consultation with all those parties.
    Mr. Meadows. OK. Let me go on a little bit further. You 
know, as--in your letter--and, actually, I read this yesterday. 
We talked about 90-minute traffic delays in Chicago, Atlanta, 
and--and I fly in and out of Atlanta quite a bit. And so to 
accurately say a 90-minute delay, it amazes me that you can 
come with that kind of accuracy to do that. But in doing--what 
data, specifically, are we looking at to calculate, because of 
sequestration we are going to have a 90-minute delay in those 
major hubs?
    Mr. Huerta. I can't tell you with precision that it would 
be 90 minutes every day. Let me talk about a specific example. 
Atlanta currently operates under an arrival stream of three 
simultaneous arrivals. Atlanta is fortunate that it has 
multiple parallel runways. It is an airport that has the 
potential to operate very efficiently
    If I have fewer controller hours available to me, then I 
have to allocate them to the most efficient allocation of 
airspace sectors to maintain safety.
    Mr. Meadows. OK.
    Mr. Huerta. Under certain conditions such as the number of 
controller hours available and weather conditions, that may 
mean that I need to leave certain positions vacant, which could 
restrict the arrival stream to two, as opposed to three.
    Mr. Meadows. OK.
    Mr. Huerta. That has an impact on efficiency.
    Mr. Meadows. All right. But from a data standpoint, so what 
you are saying is this is an overarching macro kind of, well, 
if we have got less people there is going to be delays in these 
major hubs. Is that what you are saying?
    Mr. Huerta. That is exactly what we are now working through 
with the stakeholders. For example, we are working with the 
users of the system in Atlanta to figure out how we would 
manage this.
    Mr. Meadows. Well, I guess my concern is--following up from 
my first question, if there is not a plan that you are 
currently in dialogue with those stakeholders, as you say, and 
there is not any precise data, to come out and say that we have 
90-minute delays is problematic, because if we don't have a 
plan, we are not sure what we are going to not have, in terms 
of air traffic controllers. Is that correct?
    Mr. Huerta. I think what we are saying is these are 
illustrative of the impacts we would expect to see.
    Mr. Meadows. All right. And so your--so there is no 
incentive to make sure that we don't have these 90-minute 
delays in Chicago or Atlanta or----
    Mr. Huerta. Oh, quite to the contrary, I think that our 
incentive is to minimize inconvenience for the maximum number 
of travelers----
    Mr. Meadows. OK, so assuming that sequestration happens, is 
that something that you can manage?
    Mr. Huerta. It is very difficult to manage, given the rules 
of the sequester, and that is what we have been saying all 
along. The fact that we have to take these cuts by program, 
project, and account, and they have to be evenly distributed 
within this fiscal year, is a significant challenge to manage.
    Mr. Meadows. I see my time has expired. Thank you, Mr. 
Chairman.
    Mr. LoBiondo. Thank you. Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman. I just want to point 
out the irony, Administrator, that if you did have a line item 
of waste, fraud, and abuse of $627 million, under the sequester 
rules you could only cut that 8 to 10 percent.
    Could you rate the FAA's performance in collaborating with 
labor, since enactment of the bill on the issue of decisions 
you are making on NextGen technologies and facility 
consolidation?
    Mr. Huerta. I think that we have developed a very 
cooperative relationship with the National Air Traffic 
Controllers Association, and in fact, all of our labor 
organizations. We think that is a very good investment.
    These are the people that are in the field that have the 
firsthand knowledge of how the facilities operate. They have 
great ideas, and they approach these collaborative 
decisionmaking processes with a level of enthusiasm that is 
truly remarkable. It is something that I am personally very 
committed to, and I know that our colleagues in labor are very 
committed to as well. In fact, everyone at the FAA who has been 
involved in this will tell you that the work that is being done 
by these groups is really without comparison. Let's just take 
the work we are doing to optimize airspace procedures.
    You are familiar with a program called Greener Skies Over 
Seattle, which is a redesign of the airspace to develop much 
more efficient arrival and departure routes into the Seattle-
Tacoma International Airport. That is something that we are 
doing cooperatively with the people that actually work in the 
facilities at the surrounding airports. In addition, we are 
working with the Boeing Company, the Port of Seattle, the 
people that operate the facilities, and our military partners.
    It is a process that takes you a little longer on the front 
end, but the benefits you get on the back end are dramatic. 
This eliminates situations where you implement something and 
you learn, belatedly, from the people in an air traffic control 
tower center, ``Oh, this doesn't work, and if you had simply 
asked me upfront, you would have known that this won't work for 
the following reasons.'' So this collaborative process is 
working very, very well.
    Are there ways to make it better? There always are. We 
continue to be--to focus on that. One of the challenges that we 
need to continue to manage is that people are investing a lot 
of time in this. This is something that costs a lot of money. I 
think it is money well spent, because I think we get a better 
aerospace system as a result, but these are some of the things 
that we also have to look at as we look at the possibility of 
the sequester.
    Mr. Larsen. Right. Well, some other questions on 
implementation. Section 204 requires a selection of a chief 
NextGen officer. Where is the FAA in that process?
    Mr. Huerta. Our concept is that the chief NextGen officer 
will be the Deputy Administrator of the agency. When I first 
joined the agency back in 2010, it was as the Deputy. As the 
Deputy, I informally acted as the chief NextGen officer. With 
the passage of FAA authorization, I would have become the chief 
NextGen officer, had I not become Acting Administrator. That is 
still our plan.
    We are well along the way to selecting a Deputy 
Administrator. That person will be the chief NextGen officer.
    Mr. Larsen. Section 608 requires a study on air traffic 
controller study--sorry, staffing. Where is FAA on that?
    Mr. Huerta. On the air traffic controller staffing, I 
believe we are in review on that, and we should provide the 
study shortly to the committee.
    Mr. Larsen. OK, good. And then also on staffing of FAA 
system specialists under 605, where is the FAA?
    Mr. Huerta. Yes, let me get you some exact dates for those.
    Mr. Larsen. Thank you very much. With regards to flight 
3407----
    Mr. Huerta. Yes.
    Mr. Larsen [continuing]. I want you to discuss the 
implementation of the two pilot training rules required. And 
are the completion of these rules--first off, are they--where 
do they sit in your priorities? And second, can you just review 
again whether or not you are going to meet timelines you have 
laid out for completion?
    Mr. Huerta. These two rules are my two highest priorities 
to complete this year. As it relates to the pilot 
qualifications--that is the hours of qualification for the 
pilots--that is on track to be completed in August of this 
year. It is important that it be completed in August of this 
year, because this is a provision that becomes self-executing 
even if the rulemaking doesn't hit that timetable.
    With respect to the pilot training rule, as you know that 
is a very complicated rule. I have given my commitment to have 
that rule completed by October of this year, and I intend to 
hit that.
    Mr. Larsen. Just a few more questions, Mr. Chairman. And I 
do have a set of questions after everyone is done, just to 
finish up. No? OK. Thank you very much. Watch me.
    Rulemaking on ADS-B technology. Where are you--where is FAA 
on that?
    Mr. Huerta. We convened an aviation rulemaking committee on 
ADS-B. They provided us with some very useful information. One 
of the things they noted was there is a great deal of 
skepticism and concern on the part of the industry about a 
mandate. We are currently working through that issue with them 
to see how to work through it before we can then commence any 
sort of a formal rulemaking process. We are trying to figure 
out how we can reach agreement with the stakeholders on this 
issue.
    Mr. Larsen. All right. And you may have mentioned this, the 
framework for consolidation and realignment of FAA's facilities 
as the report required in 804.
    Mr. Huerta. That is a very complicated undertaking for us. 
The important thing is to get it right. We have had, as you 
well know, Mr. Larsen, many false starts in trying to 
consolidate facilities. That has been because we haven't had 
consistent criteria and repeatable processes to look at how to 
consolidate. We haven't taken account of the airspace impacts, 
which would enable us to actually yield substantial savings.
    So, our focus is on correcting those problems, working 
collaboratively with our unions to figure out how best to 
structure that program. It has taken longer than we would like, 
but I think we are making good progress.
    Mr. Larsen. I have one final question in round two, and it 
goes back to greener skies. I appreciate what you have said 
about talking to stakeholders, making sure everyone is 
involved.
    Naturally, as you know, when you changed flight patterns 
you go over people's houses that you weren't--that planes 
weren't going over before. So, as a result, we have heard 
concerns from local electeds there reflecting what they are 
hearing from people about increased noise. And I am just 
wondering how you are approaching the involvement of the 
community itself in communicating the value of greener skies, 
and what can be done to address their issues.
    Mr. Huerta. We have had a lot of discussions with Alaska 
Airlines and the Port of Seattle, who actually hear more of the 
local complaints than we do. We are working very closely with 
them to respond to the complaints.
    In general, the benefit for noise is a huge benefit 
because, as a result of these advanced procedures, aircraft 
tend to glide in on arrival, as opposed to the more traditional 
stair-step arrival at an airport. That results in a lot less 
noise, and it also reduces the noise footprint. But there is 
always a lot of energy around airplanes flying over 
communities, particularly communities which are adjacent to 
airports. We work closely with our airport partners to make 
sure that they have information on what we are actually doing 
in response to noise complaints.
    Mr. Larsen. All right. Well, thank you, Mr. Chairman. If 
I--again, just at the end, I do have a set of questions. I 
appreciate that.
    Mr. LoBiondo. Mr. Huerta, Mr. Larsen asked a question about 
the requirement in the FAA authorization bill to create a 
report on the plan to consolidate and realign FAA facilities to 
support NextGen. Is that going to be comprehensive or region by 
region?
    Mr. Huerta. It is not going to be region by region. We are 
looking at the whole country. We may approach it by types of 
facilities, but we do need to look at the whole country.
    Mr. LoBiondo. OK. After the many short-term extensions 
which prevented the FAA from planning long term on many 
projects, could you elaborate on the tools that the FAA 
authorization bill provided the FAA to make progress in areas 
that were previously either stunted or delayed, or made it 
impossible? What good has come from that?
    Mr. Huerta. Well, I think the major benefit has been that 
FAA reauthorization lays out a clear road map for 
implementation of NextGen. As you know, the committee has been 
incredibly supportive of our ability to transition to the 
airspace system to NextGen, and that requires there to be a 
level of certainty and predictability around how we would 
actually deliver new navigation techniques and the underlying 
platforms and support systems.
    So reauthorization, in addition to laying out a consistent 
direction from Congress and program support for that direction, 
also provided frameworks for consultation with members of the 
industry. It also provided guidance to the agency on how we 
should best staff to ensure that NextGen has the priority that 
it requires.
    We have reorganized the agency. In fact, we have a 
dedicated NextGen organization that includes the staff that is 
responsible for the integration of these systems. That is 
probably the most difficult part of implementing NextGen. I 
think we have made very, very good progress on integration. We 
have to get the chief NextGen officer in place to complete that 
transition, but I do believe that we have made very good 
progress in coordinating how we deliver large, complex 
projects.
    Mr. Chairman, as you well know, we have got a wonderful 
team at the tech center that are right in the middle of all of 
this, because they are our principal test bed for how we 
deliver these new programs.
    A second area--or unless you want to stop me there----
    Mr. LoBiondo. No, no, no, go ahead.
    Mr. Huerta. A second area where I think we have seen 
benefits is for our airport partners. One of the things that 
our airport partners were extremely concerned about was the 
notion that they were seeing airport grants coming in very 
small increments, which makes for a great deal of inefficiency 
for actually executing a construction program. The fact that we 
were able to get past that and into long-term authorization has 
given them more certainty. It makes for a much more efficient 
delivery and much lower project costs.
    Finally, I want to return to the point that Mr. Larsen 
raised, and that is planning for the future. The FAA has had a 
set of facilities. It has had a set of procedures. It has had a 
set of regulations that have served us very, very well for the 
last 50 years. As we look forward, as the aviation system is 
transitioning, we are all transitioning to a completely 
different way of how we move airplanes. We are not relying on 
radar, we are relying on satellite-based systems to help us 
move aircraft and ensure safety throughout the system.
    That is more than a technological change. It is a cultural 
change and an operational change. There are huge opportunities 
for efficiency in the system down the road, and we have to 
manage to those efficiencies.
    I tell my employees all the time that we are at a critical 
place in aviation. Decisions that we are making in the next 
couple of years, with the guidance from this committee and with 
the support that you have given us, are going to shape what 
aviation looks like for decades to come. And we have to take 
that very seriously.
    Mr. LoBiondo. How would you--with commercial air carriers 
that--the promise of NextGen and the safety benefits and the 
economic benefits are so huge. And I know a period back there 
was concern about some of the bumps in the road and how that 
was coming together. There were even some concerns expressed 
about the level of communication with the FAA from the 
commercial carriers. I know you have taken some steps to 
address that.
    How would you rate, at this point, where you see the 
interaction with the commercial carriers, as far as NextGen, 
the ideas and frustrations that they may have, and they have 
the ability to address them so that this could move forward 
with the real world, as I like to call it? And not just in 
theory.
    Mr. Huerta. Sure. That is an area that has been a high 
priority for me and all of us at the FAA. You correctly point 
out that it wasn't that long ago, where there was a great deal 
of frustration and skepticism about NextGen. I think we have 
come a long way, but I would characterize that there is still 
some skepticism. The skepticism is over whether the benefits 
will really be there.
    What is different now is that we are talking. We are now 
struggling together to develop the metrics and to develop the 
certainty around delivery of benefits. I view that as a very 
positive development.
    I talk to airline CEOs almost on a daily basis. We have 
each other's cell phones and speed dials. But communication is 
not just at that level. We have great communication that is 
taking place at many different levels within the organization.
    I talked about the airspace redesign activities that we 
have underway, where we have brought the operations executives 
of an air carrier at a particular airport together with the 
tower, center and TRACON managers to actually talk through how 
to improve service in Atlanta. How to redesign the airspace so 
that it works for Delta and for the other carriers that operate 
at that airport. Delta is sitting right there.
    Likewise, Alaska was critical in getting us through Greener 
Skies Over Seattle as the major hub carrier there. We are doing 
this at every airport around the country, United at Newark and 
Houston; American Airlines with the work that we have been 
doing at north Texas.
    As we work in these metropolitan areas, I have taken the 
position that it is pointless to argue about whether carriers 
are getting benefits, or aren't getting benefits. I think it is 
much better to have the conversation, ``Let's sit down and 
actually solve a specific problem, and talk about how we 
achieve the benefit.'' Those conversations continue, and they 
have gone very well. They will certainly be what will 
characterize our work in the years ahead.
    Mr. LoBiondo. We will certainly try to explore that 
further. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. This will be the last 
set of questions for me.
    As you know, I have closely monitored the progress of the 
work that FAA has done with Boeing to fix the issues that led 
to the grounding of the 787. And I have heard both from you all 
and from Boeing that you are working cooperatively together, it 
is a good relationship, trying to move things forward. That is 
great news. I understand, as well, you met with Boeing 
executives last week, and I have two questions.
    The first question is just can you briefly outline the 
proposed fixes for the 787?
    Mr. Huerta. Sure. As you know, the problem that was 
identified in the incidents that took place relate to the 
lithium ion batteries that power the aircraft. There are two 
batteries that are within the airplane. One is in the forward 
cargo bay, and that is the main battery for the main power 
system of the airplane; one in the aft cargo bay, which powers 
the auxiliary power unit, which is how the airplane receives 
power when it is on the ground.
    In the two incidents reported, one in Boston, one in Japan, 
the investigations are showing that problems developed in the 
batteries themselves. Boeing's proposal has had a lot of 
outside peer review. We have been involved in as well. Boeing 
has been working cooperatively with the National Transportation 
Safety Board and their Japanese counterparts. We have brought 
together the best technical experts to really understand what 
is going on here.
    What Boeing has presented to us is a proposal that 
identifies a handful of potential areas of probable cause--all 
within the battery itself--and then provides three levels of 
mitigation to ensure that these problems cannot present 
themselves again.
    Each battery has eight cells, so you have three 
possibilities of events.
    One is that you can have a problem in a single cell. So 
what Boeing is proposing, and what we are evaluating with other 
safety authorities from other countries, is mitigations and 
corrections and re-engineerings of designs that will prevent a 
cell event from taking place.
    The second potential problem is that a problem in one cell 
propagates to adjacent cells. There is another set of 
mitigating activities that have been presented, and that our 
engineering teams are evaluating for their effectiveness in 
preventing that propagation from happening.
    The third level is that if the problem propagates to the 
entire battery. We need to mitigate and ensure that such an 
occurrence does not become an event that affects the airplane. 
So we are working at the cell level, the battery level, and the 
airplane level. The plan that Boeing has presented is a 
comprehensive plan that addresses all of those areas.
    We have only received the plan last week. Our transport 
airplane directorate in Seattle is reviewing the plan in 
significant technical detail. I expect to receive a report on 
it next week. Once we approve the plan, then we have to go 
through the process of actually implementing the plan, which 
will involve a great deal of testing, a great deal of further 
analysis, and re-engineering before these planes go back in the 
air.
    Mr. Larsen. When you say ``back in the air,'' you mean back 
operating for the airlines?
    Mr. Huerta. Correct.
    Mr. Larsen. So the second question I have, though, is--just 
since--even since less than 24 hours ago, there have been 
conflicting reports about whether the FAA is close to allowing 
test flights of the 87 to try these fixes out. Can you just 
give some clarity on where the process is on that point?
    Mr. Huerta. I don't have an application in front of me for 
any further test flights.
    Mr. Larsen. So there is no decision to be made----
    Mr. Huerta. Correct.
    Mr. Larsen [continuing]. Today or tomorrow or--until that 
happens?
    Mr. Huerta. That is correct.
    Mr. Larsen. Right, right. So, just to clarify, FAA has not 
made a decision to allow test flights?
    Mr. Huerta. We haven't received an application for further 
test flights.
    Mr. Larsen. For further--right, for further test flights.
    Mr. Huerta. Correct.
    Mr. Larsen. Yes.
    Mr. Huerta. There have been two.
    Mr. Larsen. Already, yes, correct.
    Mr. Huerta. Yes.
    Mr. Larsen. Thank you very much.
    Mr. Huerta. Thank you.
    Mr. LoBiondo. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Let's go back to this 
battery. So what you are saying is the incident that we are 
talking about is really contained to the battery component 
within the aircraft. Is that correct?
    Mr. Huerta. What we saw in both events were heat-related 
events within the cells of the batteries that then propagated 
to other cells.
    Mr. Meadows. All right. And so, assuming that we have got 
Boeing being the manufacturer of that component, is that 
something that they are manufacturing?
    Mr. Huerta. No.
    Mr. Meadows. Or did they get that from another supplier?
    Mr. Huerta. They obtained that from another supplier.
    Mr. Meadows. And so are we--is that supplier coming in to 
help address that problem? Because you acted like it was 
Boeing's engineers.
    Mr. Huerta. Yes----
    Mr. Meadows. But if it is a battery component made by 
somebody else----
    Mr. Huerta. This is one of the things that we are currently 
evaluating. Let's separate where we were and where we are. 
Where we were was a battery was manufactured by a third-party 
supplier, pursuant to a design by a Boeing subcontractor. The 
subcontractor, in turn, provided the battery to Boeing. Boeing 
is stepping in and, in this review, is assuming responsibility 
for the design and for the testing. That testing on the battery 
is something we need to oversee and ultimately certify.
    You know, any re-engineering solution, how it will get 
built, has yet to be worked out.
    Mr. Meadows. So what you are saying is they are assuming 
responsibility, but indeed, the battery may have not been their 
responsibility. And thus, its failure is not Boeing's.
    Mr. Huerta. That investigation is still ongoing, in terms 
of the actual cause of the incidents in question. That is what 
the NTSB and the JTSB--the Japanese Transportation Safety 
Board--are trying to identify. What was the specific cause of 
the event.
    What Boeing's work is really focused on is determining what 
we know is within this universe of causes. How do we prevent 
them, and how do we mitigate them?
    Mr. Meadows. All right. And what was the supplier of that 
battery?
    Mr. Huerta. A company named GS Yuasa. It is a Japanese 
company.
    Mr. Meadows. All right. And so they have supplied--and so 
are they involved in possibly in any of the re-engineering of 
that battery component, or in consultation with Boeing right 
now?
    Mr. Huerta. I can't speak to what the level of 
consultations have been between those two organizations. My 
inspectors have visited the battery factory to observe. We are 
evaluating data relating to its manufacture, and that work is 
ongoing.
    Mr. Meadows. So, indeed, the failure could be, indeed, from 
a supplier, not from Boeing itself.
    Mr. Huerta. At this point that is something we are still 
looking at.
    Mr. Meadows. All right. Thank you. I yield back.
    Mr. LoBiondo. Thank you, Mr. Huerta, for being here today. 
I just want to say that I know I have seen up close and 
personal the dedication of the thousands of employees at Tech 
Center in my district. And the commitment to excellence and 
service is extraordinary. And I am sure that cuts across the 
entire operation.
    So, in these very difficult times for you and your team, we 
appreciate the dedication of the employees of the FAA to 
keeping the traveling public safe and secure. I am sure we are 
going to have a lot we are going to have to work on together. 
And we appreciate your being here today.
    And the committee stands adjourned.
    [Whereupon, at 12:42 p.m., the subcommittee was adjourned.]

</pre></body></html>
